<html>
<title> - STATUS OF THE DISTRICT OF COLUMBIA PUBLIC SCHOOLS PLAN FOR CAPITAL IMPROVEMENTS AND ACADEMIC EXCELLENCE</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




 
  STATUS OF THE DISTRICT OF COLUMBIA PUBLIC SCHOOLS PLAN FOR CAPITAL 
                  IMPROVEMENTS AND ACADEMIC EXCELLENCE

=======================================================================

                                HEARING

                               before the

                          SUBCOMMITTEE ON THE
                          DISTRICT OF COLUMBIA

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 30, 1999

                               __________

                           Serial No. 106-64

                               __________

       Printed for the use of the Committee on Government Reform


     Available via the World Wide Web: http://www.house.gov/reform

                                 ______

                     U.S. GOVERNMENT PRINTING OFFICE
61-528 CC                    WASHINGTON : 2000




                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
JOHN T. DOOLITTLE, California            (Independent)
HELEN CHENOWETH, Idaho


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                      Carla J. Martin, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

                Subcommittee on the District of Columbia

                  THOMAS M. DAVIS, Virginia, Chairman
CONSTANCE A. MORELLA, Maryland       ELEANOR HOLMES NORTON, Washington, 
STEPHEN HORN, California                 DC
JOE SCARBOROUGH, Florida             CAROLYN B. MALONEY, New York
                                     EDOLPHUS TOWNS, New York

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
                Howard Denis, Staff Director and Counsel
              Anne Mack Barnes, Professional Staff Member
                   Bob Dix, Professional Staff Member
               Melissa Wojciak, Professional Staff Member
                      Jon Bouker, Minority Counsel
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 30, 1999...................................     1
Statement of:
    Williams, Anthony, Mayor, District of Columbia; Kevin 
      Chavous, chairman, education committee, District of 
      Columbia City Council; Constance Newman, vice-chairman, 
      D.C. Control Board; Arlene Ackerman, superintendent, 
      District of Columbia Public Schools; Wilma Harvey, 
      president, District of Columbia Public Schools Board of 
      Education; and Maudine Cooper, chairman, District of 
      Columbia Public Schools Emergency Transitional Education 
      Board of Trustees..........................................     9
Letters, statements, etc., submitted for the record by:
    Ackerman, Arlene, superintendent, District of Columbia Public 
      Schools:
        Information concerning attorney's fees...................    62
        Prepared statement of....................................    39
    Chavous, Kevin, chairman, education committee, District of 
      Columbia City Council, prepared statement of...............    18
    Cooper, Maudine, chairman, District of Columbia Public 
      Schools Emergency Transitional Education Board of Trustees, 
      prepared statement of......................................    45
    Davis, Hon. Thomas M., a Representative in Congress from the 
      State of Virginia, prepared statement of...................     3
    Newman, Constance, vice-chairman, D.C. Control Board, 
      prepared statement of......................................    28
    Norton, Hon. Eleanor Holmes, a Representative in Congress 
      from the District of Columbia, prepared statement of.......     7
    Williams, Anthony, Mayor, District of Columbia, prepared 
      statement of...............................................    12


  STATUS OF THE DISTRICT OF COLUMBIA PUBLIC SCHOOLS PLAN FOR CAPITAL 
                  IMPROVEMENTS AND ACADEMIC EXCELLENCE

                              ----------                              


                         FRIDAY, APRIL 30, 1999

                  House of Representatives,
          Subcommittee on the District of Columbia,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2154, Rayburn House Office Building, Hon. Thomas M. Davis 
(chairman of the subcommittee) presiding.
    Present: Representatives Davis, Horn and Norton.
    Also present: Representative Biggert.
    Staff present: Howard Denis, staff director/counsel; Anne 
Mack Barnes, Bob Dix, and Melissa Wojciak, professional staff 
members; Trey Hardin, communications and policy director; Jon 
Bouker, minority counsel; and Jean Gosa, minority staff 
assistant.
    Mr. Davis. Good morning and welcome. We are here today to 
review many of the issues and challenges which confront the 
District of Columbia public school system. I am as always 
indebted to the ranking member of the subcommittee, Eleanor 
Holmes Norton, for working with me in a bipartisan manner, and 
I'm happy to have Mr. Horn from California, whose family has 
been in Washington, DC, for many generations, with us as well.
    We are looking to the future.
    Mrs. Biggert has just come in, too, from Illinois. Thank 
you for coming as well.
    We are looking to the future. Last year the subcommittee 
conducted four hearings on the D.C. schools. Today we will 
examine the status of a number of the reform efforts. We seek 
an environment in which students can learn without fear for 
their personal safety, an environment that invites stakeholders 
to share in the effort to develop creative solutions. We seek 
an environment that is not driven by crisis.
    I do not minimize the magnitude of the challenges that 
remain in restoring full confidence in the public school 
system. We have to work together to ensure that successful 
academic achievement and social development is the hallmark of 
the system's reputation. In fairness, it should be acknowledged 
that meaningful progress is being achieved. I want to thank our 
witnesses today and all of those who have played a role in that 
effort.
    This subcommittee continues to be very active aggressively 
pursuing public policy developments and oversight review 
intended to facilitate the successful revitalization of the 
District of Columbia. The current reform effort underway in the 
District's public schools is a very significant element in the 
overall revitalization.
    Recent events, including the decision of the bond houses in 
New York to upgrade the District's debt rating, is evidence 
that overall efforts in the city across a wide front are 
producing results.
    The leadership and vision being provided by Superintendent 
Arlene Ackerman and her team at the DCPS, along with the 
support and the direction provided by the Board of Education, 
the Emergency Board of Trustees, the Control Board, Mayor 
Williams and the City Council, provide the foundation for 
future successes; additionally, the support of parents, 
community leaders, the private sector, teachers, 
administrators, and support staff demonstrating our joint 
commitment to academic excellence.
    The District of Columbia College Access Act, which I 
introduced, and which the subcommittee approved unanimously 2 
weeks ago, will result in expanded opportunities for high 
school graduates for affordable college educations. We are 
deeply grateful to all of our colleagues for their recognition 
of the enormous value of H.R. 974 and the benefits of expanding 
choices and access to higher education that the bill will bring 
about.
    We have to provide opportunities to achieve academic 
excellence in facilities that are safe, have efficient heating 
and air conditioning, whose roofs don't leak, and can be 
modernized. We have to be able to include advances in 
technology, fiber optic cable, arts and sciences laboratories 
and special programming activities. This must be a priority.
    Another priority mission is to develop, update, and 
implement an academic plan which meets the needs of the school 
population and prepares students to compete in a global 
economy.
    I thank our distinguished panel for demonstrating the 
leadership and commitment to the District's children. I look 
forward to their testimony and the opportunity to pursue a 
number of questions.
    [The prepared statement of Hon. Thomas M. Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T6579.001
    
    [GRAPHIC] [TIFF OMITTED] T6579.002
    
    Mr. Davis. I would now yield to Delegate Norton for an 
opening statement.
    Ms. Norton. Thank you, Mr. Chairman. Before I begin my 
opening statement, I would just like to commend the D.C. Public 
Schools on the way in which they have responded to the 
aftermath of the great tragedy at Columbine High School in 
Littleton, CO. While, like many school systems across the 
United States, there had to be some evacuations, you had to 
close schools, it's over with and done with, and it's settled 
down.
    These children may regard this matter as pranks. I would 
hope that if we do find that children have engaged in these 
threats, that strong sanctions would be taken against them so 
that an example could be made so that children would, in fact, 
get the point that these are not pranks and are not considered 
pranks. If, in fact, adults or children close to adults are 
found to be responsible, I would hope that some prosecution 
would occur so that we could have a deterrent effect upon such 
copycat incidents.
    Today's hearing reflects the continuing interest of the 
chairman, the subcommittee, and the Congress in improvements in 
the D.C. Public Schools. Of the problems that have arisen in 
home rule governance, none has had a more serious impact than 
those that relate to education and children. The District's 
problems in its public schools are typical of big cities. 
However, the paralysis and stalemate that developed between the 
Board of Education and former Superintendent Franklin Smith 
left the schools to drift downward and finally hit bottom and 
contributed to the loss of the board's power and standing in 
the community. A commendable and structured effort to regain 
both is under way.
    The decline in the D.C. Public Schools has been so 
wholesale that the initial reforms related simply to keeping 
them standing. Much of what has occupied the appointed Board of 
Trustees, the superintendent, and the Council has related not 
to academic improvements, but to support issues, such as 
security, fixing roofs, getting a correct count of children in 
the schools, and assuring edible food in school cafeterias. The 
primacy of these issues in the first stage of reform was 
demonstrated by the appointment of a former general as 
superintendent, Julius Becton. To General Becton's credit, he 
also brought in an educational expert, Arlene Ackerman, who has 
since become superintendent.
    Although Mrs. Ackerman became superintendent more quickly 
than anyone had anticipated after the unexpected resignation of 
General Becton, she quickly won the confidence of many in the 
city and the Congress. This confidence came largely because she 
broke through the academic stalemate and quickly began to make 
major changes unlike any that had been seen in many years. One 
common example was a turnaround in test scores in virtually 
every grade. Another was the Summer STARS program and an after-
school program during the school year, one of the first of its 
kind in the country, to tackle social promotion by reducing 
class size and giving children the hands-on academic help they 
need.
    The Clinton administration has been so impressed with these 
and similar innovations that the President, the First Lady, and 
the Secretary of Education have sent millions of dollars to the 
city for the educational reforms designed by Superintendent 
Ackerman, including $5 million for the Summer STARS program. 
Secretary Richard Riley, who spoke at my Education town meeting 
this past Monday, announced there another $5 million grant for 
the District of Columbia Youth Investment Program for the 
superintendent's after-school programs.
    Large problems continue to plague the D.C. Public Schools 
and the superintendent, the trustees, and the Board of 
Education are under great pressure to proceed more rapidly to 
attend to them. Among the most serious are continuing problems 
with special education where the children most in need simply 
cannot afford to wait any longer. The difference between today 
and recent years, however, is that the superintendent has not 
hesitated to act boldly whatever the consequences to existing 
management and has not had interference from others that 
sometimes made it difficult to take bold action in the past.
    As the Control Board proceeds toward restoration of the 
home rule powers of the school board, District officials must 
look at what home rule governance and structure best suits our 
school system today. Many cities are moving away from 
politically based school boards toward structures that assure 
parent participation and guarantee that the children will be 
the overriding concern. I have not examined what the available 
options are. I can only hope that some in the city with direct 
responsibilities are doing so. I have formed no opinion yet, 
nor, I believe, have most residents. Most would agree, however, 
that what we had surely did not work, and indeed fell apart. 
What we had may well be quite capable of working, but the 
burden will be on the present system to demonstrate that it can 
work for children.
    One thing seems clear. There has been a change in the 
political culture in the District. It did not come from 
Congress. It did not come from the Control Board. It came 
directly from the streets and the people. Residents will no 
longer tolerate factionalism on the board, interference with 
the superintendent who wants to move forward, poor performance 
by our children, or unaccountable personnel. The District does 
not need overseers to make the schools work. Residents know 
what to do. They simply won't take it anymore.
    I'm very pleased to welcome today's witnesses, Mayor 
Anthony Williams, Council Member Kevin Chavous, chair of the 
Council's education committee; Wilma Harvey, president of D.C. 
Board of Education; Constance Newman, vice chair of the Control 
Board; Maudine Cooper, chair of the Emergency Board of 
Trustees; and Superintendent Arlene Ackerman. I commend each 
and every one of them for the admirable leadership they are 
providing in the effort to reform and refurbish our public 
schools and to assure families and residents a school system of 
which we can all be proud.
    Thank you, Mr. Chairman for this hearing and for your 
efforts on behalf of our schools.
    Mr. Davis. Thank you very much.
    [The prepared statement of Hon. Eleanor Holmes Norton 
follows:]

[GRAPHIC] [TIFF OMITTED] T6579.003

[GRAPHIC] [TIFF OMITTED] T6579.004

    Mr. Davis. Mrs. Biggert.
    Mrs. Biggert. Thank you, Mr. Chairman, and thank you very 
much for allowing me to participate in your hearing today. I am 
on the Government Reform Committee, but not on the District of 
Columbia Subcommittee, but public education is of great 
importance to me, and public education in large cities. While 
in the Illinois Legislature, I worked on the Chicago school 
reform. I'm proud to say that it proved to be a great success. 
So I look forward to hearing about the reform in the District 
today, and I'm happy to be here. Thank you.
    Mr. Davis. Thank you very much.
    Any other statements? If not, I would like to call our 
panel of witnesses to testify. Mayor Anthony Williams; 
Councilman Kevin Chavous, the chairman of the education 
committee; Connie Newman, the vice chair of the Control Board; 
Arlene Ackerman, the superintendent of the District of Columbia 
Public Schools; Wilma Harvey, the president of the D.C. Board 
of Education; and Maudine Cooper, the chair of the Emergency 
Board of Trustees.
    As you know, it's the policy of the committee--is Mr. 
Chavous here yet? Councilman Chavous is not here yet, but we 
will swear him in when he gets here. It is the policy of the 
committee that all witnesses be sworn before they can testify. 
If you would rise with me and raise your right hands.
    [Witnesses sworn.]
    Mr. Davis. Mayor Williams, I understand that you have some 
pressing budgetary meetings coming up, and so I will start with 
you. If you have to excuse yourself before the questions, we 
certainly understand, and we just look forward to a very 
continued cooperative working relationship with you. Thank you 
for being here.

 STATEMENTS OF ANTHONY WILLIAMS, MAYOR, DISTRICT OF COLUMBIA; 
   KEVIN CHAVOUS, CHAIRMAN, EDUCATION COMMITTEE, DISTRICT OF 
 COLUMBIA CITY COUNCIL; CONSTANCE NEWMAN, VICE-CHAIRMAN, D.C. 
  CONTROL BOARD; ARLENE ACKERMAN, SUPERINTENDENT, DISTRICT OF 
 COLUMBIA PUBLIC SCHOOLS; WILMA HARVEY, PRESIDENT, DISTRICT OF 
COLUMBIA PUBLIC SCHOOLS BOARD OF EDUCATION; AND MAUDINE COOPER, 
    CHAIRMAN, DISTRICT OF COLUMBIA PUBLIC SCHOOLS EMERGENCY 
            TRANSITIONAL EDUCATION BOARD OF TRUSTEES

    Mayor Williams. Thank you, Mr. Chairman. I was just at a 
meeting actually with some of the county executives, and we 
were talking about contingency plans for the Wilson Bridge. I'm 
sure you and the committee would appreciate that.
    I want to thank you and Congresswoman Norton, Congressman 
Horn, all of the members of the committee for having us here 
today for the opportunity to testify. I'm pleased to join this 
panel to discuss our shared vision for education, to elaborate 
on the questions of governance and the operations of the school 
system.
    This is a time for optimism in the District. Our bond 
rating is up, our books are balanced, and our economy is still 
expanding. But a rising economic tide does not ensure the 
success of our education system. Our school system needs to 
experience a similar turnaround. I'm committed to working with 
the superintendent and the other leaders of our city to make 
sure that this happens.
    My vision for education has three central components. 
First, our children deserve the best possible schools with 
first-class teachers. Second, our approach to education must 
recognize that an equal part of a child's learning and 
development takes place outside the classroom. This is 
exemplified by my belief in the idea of parents as first 
teachers. Third, we must mobilize all of the resources of the 
community toward the education of our young people. That means 
involving parents, teachers, civic leaders, faith 
organizations, as well as the business community in the life of 
every child.
    Let me discuss each of these in turn and highlight a few of 
the initiatives. As I mentioned, our first and most immediate 
priority is to make sure that our children have the best 
schools with the best teachers in the region. Our students 
deserve to learn under a roof that doesn't leak. They deserve 
schools where bathrooms work and classrooms stay warm in the 
winter and cool during summer. That's why I have proposed 
investing $364 million in renovation, modernization, and 
construction of public schools. Among other things, these funds 
will pay for two new schools and will allow us to renovate 
eight schools a year for the next 6 years. The funds will bring 
our education system into the 21st century providing access to 
modern technology and computers.
    Competition can and should drive this effort to make our 
schools the best they can be. I believe that parents should 
have a choice among public schools and charter schools so that 
they can hold schools accountable for the education their 
children receive.
    I also believe our children deserve the best teachers in 
the region. District teaching salaries are well below those in 
Maryland and Virginia. With close to 70 percent of our teachers 
approaching retirement age in the years ahead, we face a 
critical window in teacher hiring. To help our city compete for 
and retain the best and brightest new educators, I have 
proposed a 4 to 5 percent raise for teachers, 4.5 percent in 
1999 and 5 percent in the year 2000.
    The second part of my vision is the idea that educating a 
child does not begin and end with the school bell. It begins 
before birth and continues through the early years and into 
high school and college. Educating a child means making a 
commitment before school, after school, and in that general 
environment.
    Early childhood programs for children are essential for 
making a child enter school ready to learn. Part of the $33 
million Children and Youth Investment Partnership could be used 
to expand access to these services for at-risk families. These 
programs have been proven to improve school performance, reduce 
instances of child abuse, as well as save as much as $7 for 
every dollar invested.
    But quality early childhood and preschool programs are not 
enough. Young people must also have access to worthwhile, 
wholesome activities during the afternoon hours. We know that, 
for example, juvenile crime suddenly triples in the hour after 
the school bell rings, yet as many as 45,000 District students 
go without after-school programs. My proposal for this 
partnership could change that equation, providing students with 
these opportunities.
    The third major component of my education vision is 
recognizing that the entire community has a role to play in the 
life of every child. Parents, teachers, and businesses must be 
engaged together in the process of education.
    I believe we must support parents in their role as first 
teachers. We must encourage and support parents to get involved 
in their child's education. Every parent should have access to 
quality affordable day care, counseling, and other services 
designed to help raise that child.
    I am also asking the business community to play a role in 
the education of the District. This is happening on a number of 
fronts. For one, we have worked in partnership with 15 
companies and foundations to establish the D.C. College Access 
Program. It is a creative partnership that will awaken students 
to the opportunities available for higher education and make 
those opportunities possible by providing scholarships to make 
college affordable. In addition to college scholarships, the 
program will provide as many as 11,000 students with college 
advisors in their high schools to help them navigate the 
complex testing, application, and financial aid process.
    Members of the business community can serve as mentors for 
young people or get involved in a summer jobs program, which I 
propose extending into a year-round program. It would be 
coupled with a new youth internship program as well as a youth-
to-careers and entrepreneurship program to engage high school 
dropouts in nontraditional education and vocational testing.
    Mr. Chairman and members of the committee, I thank you for 
the opportunity to testify before you today and look forward to 
answering your questions.
    Mr. Davis. Thank you very much.
    [The prepared statement of Mayor Williams follows:]

    [GRAPHIC] [TIFF OMITTED] T6579.005
    
    [GRAPHIC] [TIFF OMITTED] T6579.006
    
    [GRAPHIC] [TIFF OMITTED] T6579.007
    
    Mr. Davis. Mr. Chavous, if you would rise, I have to swear 
you in. Can you stand up?
    Mr. Chavous. Yes.
    Mr. Davis. Happy to have you here.
    [Witness sworn.]
    Mr. Davis. Councilman Chavous, if you would care to make 
any opening remarks, we have copies of everything that has been 
submitted. You don't need to take the full 5 minutes.
    Mr. Chavous. Thank you, Mr. Chairman, and members of the 
committee, including our Delegate and our Congresswoman. It's 
good to see you all.
    Sorry I was a few minutes late. I am a member of the 
finance committee on the Council, and this morning we voted out 
of committee the most sweeping tax package this city has ever 
seen. I'm proud to report that this morning.
    I am Kevin Chavous, a member of the Council of the District 
of Columbia representing ward 7. As you know, I'm speaking in 
my capacity this morning as chair of the committee on 
education, libraries and recreation. I welcome this opportunity 
to report to you on the role that the Council has played and 
will continue to play in the ongoing reform effort taking place 
in our public school system.
    You do have my prepared remarks and I just want to 
highlight a couple of things that indicate the involvement of 
the Council in this effort.
    The committee on education over the past few months has had 
an unprecedented number of hearings involving the District of 
Columbia Public Schools and the charter schools over the past 
few months. Topics have included areas such as school bus 
transportation, certification of bus drivers, as well as 
various other special education issues; student truancy and 
dropout prevention policies and programs; the public charter 
schools and their role in this community; long-range facilities 
master plan; and the interagency collaboration effort where we 
have asked various agencies that touch children to come 
together on ways to work better together.
    This month the Council did something that will move this 
system forward in the area of special education. Working with 
the superintendent, we approved at the request of my committee, 
the establishment of a special Council committee to investigate 
the excessive spending, poor accountability, and ineffective, 
low-quality offerings in the special education programs. 
Clearly, problems were manifested long before our current 
superintendent came to this city, but it is the goal of this 
committee, of the Council committee on education, to assist her 
in offering a quality education for our special education 
students that number approximately 8,000 children.
    In addition, less than a year ago the full Council voted 
and passed the uniform per pupil student funding formula which 
was later approved by Congress. This law is noteworthy because 
it allows the funds that we allocate for education to follow 
the student. It also provides a sound basis for the fiscal 
budget to be established with respect to how we spend our 
money. The public charter schools is implementing this formula 
this school year, and DCPS, our public school system, will 
begin similar implementation in school year 1999 and 2000.
    We have, my office, maintained almost daily contact with 
Mrs. Ackerman and members of her staff as well as members of 
the public charter school community. We intend to be of 
assistance to both entities as well as to provide oversight, 
and to do so we need to be informed to understand the issues 
and be able to answer the questions of our constituents. The 
strength of this communication will support our efforts in 
rebuilding a budget consensus process and make sure that the 
2000 budget reflects the priorities of our citizens. The good 
news is that all of the committee and budget working group 
recommendations, if they are all accepted, Mrs. Ackerman will 
get close to what she wants for 1999 and 2000. The Mayor has 
made that commitment, and I do as well.
    I want to highlight a couple of other Council actions 
before I close that impact on school reform. In the budget that 
we passed out of committee just a couple of weeks ago, we 
requested the DCPS study the feasibility and the requirements 
for establishing a residential school for school year 2000 and 
2001. I might parenthetically add that we have seen with the 
SEA foundation, a residential school that is a public charter 
school, that there is a greater need for a holistic approach 
for the education of our children. Because of some of the 
dysfunctional homes that a lot of our children come from, we 
feel, the Council feels strongly that the city should make an 
investment in a residential school.
    In addition, we have requested in our committee report that 
DCPS establish a comprehensive student truancy and dropout 
prevention program for school year 1999 and 2000. I can tell 
you that far too many of our children are on the street or 
visiting local businesses during school hours. Working with the 
Mayor, Chief Ramsey, and Superintendent Ackerman, this year we 
sent thousands of letters to businesses urging them to report 
children who come into their establishments during the school 
day to the local school.
    As a strong supporter of before- and after-school programs, 
my colleagues in the Council and I have requested that DCPS 
apply for the 72 Federal grants for which they qualify. 
According to reports, only 47 of those grants were applied for 
last year. We feel that if we can maximize the funds that are 
available through Federal grants, it would enhance some of the 
efforts that Mrs. Ackerman has been under taking with respect 
to school reform.
    With respect to school safety, we voted out of committee 
just recently to transfer the responsibility of school security 
from DCPS to the Metropolitan Police Department. Sadly, it was 
on the same morning of the Littleton, CO, incident. It is my 
belief that Mrs. Ackerman, working with the chief of police, 
can put in place a sound approach to school security that 
reflects the public safety needs both inside and outside of the 
school.
    Another project in progress is the State Education Agency. 
It is my belief that the District of Columbia has numerous 
State education responsibilities, and there is no single agency 
that handles this task. Therefore, we have State education 
agency functions that are located in a number of different 
agencies without the benefit of the collaboration and 
comprehensive planning that should take place. Our committee 
has suggested and we will be proposing legislation that would 
blend those responsibilities into one single entity.
    With respect to the public charter schools, we do feel that 
the public charter school experiment is working in the 
District. We support public charter schools. We do need to 
address some of the inherent inconsistencies in some of their 
funding, particularly as it relates to facilities. We have a 
lot of good charter school programs that have been proposed, 
but one of the big barriers is in the area of facilities and 
where they are going to house their efforts. So we are working 
with Connie Newman on the Control Board and Mrs. Ackerman to 
find a way to make excess D.C. school surplus property more 
available to charter schools.
    With respect to new school construction, I am very pleased 
to report that the Mayor has worked with us in putting in place 
a new school construction plan that is noteworthy here in the 
District. We are the only jurisdiction in America that hasn't 
built a new school in the last 20 years, but over the next 10 
years, we will either build from the ground up 8 to 10 new 
schools or totally modernize them.
    Finally, let me just say that President Clinton has 
proposed $114 million for a special subsidized bonding 
authority for DCPS school construction and repairs; however, to 
successfully implement and complete the plan, Federal funds are 
needed. I'm requesting the Congress to consider providing the 
$73 million for fiscal year 2000 as has been outlined in the 
Mayor's fiscal year 2000 financial plan. That will make a big 
difference in aiding our effort toward new school construction.
    In closing, for as much progress as the Council has made, 
there remains work to be done in support of public education 
reform. The Authority, Mayor, Council, and superintendent are 
committed to working together in support of public education.
    I do want to say that we have a jewel in Mrs. Arlene 
Ackerman. She should be commended for her effort and 
perseverance in accepting the many challenges to the reform of 
our school system. While she has a lot of challenges, we must 
understand and appreciate that the problems she has been tasked 
to fix weren't new--they were here before she got here. She 
didn't cause them. But I think that she has done a fabulous 
job, and we are committed to working with her to make that a 
reality.
    Thank you for the opportunity to testify and for your 
support, and I look foward to working with you in the future 
and to entertain any questions you may have.
    Mr. Davis. Thank you.
    [The prepared statement of Mr. Chavous follows:]

    [GRAPHIC] [TIFF OMITTED] T6579.008
    
    [GRAPHIC] [TIFF OMITTED] T6579.009
    
    [GRAPHIC] [TIFF OMITTED] T6579.010
    
    [GRAPHIC] [TIFF OMITTED] T6579.011
    
    [GRAPHIC] [TIFF OMITTED] T6579.012
    
    [GRAPHIC] [TIFF OMITTED] T6579.013
    
    [GRAPHIC] [TIFF OMITTED] T6579.014
    
    [GRAPHIC] [TIFF OMITTED] T6579.015
    
    Mr. Davis. Ms. Newman.
    Ms. Newman. Good morning, Mr. Chairman and Congresswoman 
Norton and members of the subcommittee. I am the member of the 
Authority with lead responsibility for public education and 
appreciate the opportunity to testify this morning. When I 
asked your staff how much time, they went 5, 4, 3, and I 
stopped them before they said 1 minute, but I will race through 
because I know that the full statement will be in the record.
    We do believe that permanent change is occurring and 
tangible progress is being made in all areas of public 
education, and, importantly, in the interest of the children of 
the District of Columbia. These improvements are the result of 
effective leadership and development of a strong reform-minded 
team under the leadership of Arlene Ackerman, superintendent, 
and chief executive officer. These changes have been in 
academic performance, in management, and in fiscal environment.
    The Authority is pleased with and fully supports the 
direction of her efforts and is committed to the aggressive 
reform agenda she has established. Through all of her efforts, 
the Emergency Transitional Board of Trustees has supported her.
    We are further encouraged by the efforts under way to 
involve the elected school board in the governance of the 
school system as an active partner in improving student 
academic performance. The priority of the Authority has been to 
ensure that the Board of Education is fully prepared to assume 
responsibility for the school system by June 30, 2000.
    A key element in the transition plan that has recently been 
put together requires the Board of Education and the 
superintendent to develop a strategic plan that contains short 
and long-term goals and objectives. The Authority is committed 
to working with all parties to ensure that transition plan is 
fully implemented.
    With regard to academic performance of students, the 
Authority is pleased. The results of the initiatives of the 
superintendent, elimination of social promotion, implementation 
of the Summer STARS program, increased principal and teacher 
accountability, more service and training, and more parental 
involvement, have contributed to the students' better academic 
performance.
    Turning now to physical improvements, I'm pleased with the 
efforts of the superintendent and the U.S. Army Corps of 
Engineers to make the schools cleaner and safer. Much progress 
has been made in the last year. The Corps understands that a 
lead responsibility of the elected school board is to develop a 
master plan, a long-range facilities master plan. They are 
prepared to work with the school board in preparing this very 
important document.
    It was mentioned earlier and I should reinforce the 
importance of the charter schools and the charter school 
movement. We do believe that the District can be a model for 
the rest of the country, given, frankly, the fact that we have 
moved faster than any other jurisdiction in establishing 
charter schools. We do know that we need to work in a much more 
efficient and effective way in supporting charter schools, 
particularly in addressing their space requirements.
    For the second year in a row we know with confidence how 
many students are in the schools. Knowing the exact number has 
become more important since the adoption of the per pupil 
funding formula and the superintendent's plans to use a 
weighted student formula to allocate funds to the individual 
schools. We believe that this new formula is an equitable way 
to fund education and will address some of the inequities that 
have existed between schools. We will work with the Council and 
the Mayor to address any problems that surface through the 
implementation of this formula.
    As required by the act, the Authority hired an independent 
auditor to audit the school's official enrollment count of 
75,000. The independent auditor has verified the number. It is 
75,483. I think it's give or take. While we have made progress, 
the Authority is still concerned, however, with the level of 
documentation being maintained by the school system and the 
public charter schools with regard to verification of 
residents.
    I want to second Chairman Chavous's concern about special 
education. Nearly 10,000 students are expected in special 
education in the coming year. Fiscal year 2000 special 
education programs will consume more than $170 million of the 
appropriated budget. The Authority supports the initiative of 
Council Member Chavous to assemble a task force which will 
include the courts, the administration, educators, and parents 
to develop a coordinated and comprehensive response to address 
this problem.
    In conclusion, the Authority is pleased with the progress 
in the District's schools. Superintendent Ackerman and her team 
of committed educators and managers are energetically tackling 
the education and management problems confronting the public 
schools, and we can see evidence of change. My colleagues and I 
recognize that much still needs to be done, and sustained 
reform will require the cooperation and participation of this 
entire community. We are committed to working with all parties 
to ensure long-term improvements in the interests of the 
children.
    Mr. Davis. Thank you.
    [The prepared statement of Ms. Newman follows:]

    [GRAPHIC] [TIFF OMITTED] T6579.016
    
    [GRAPHIC] [TIFF OMITTED] T6579.017
    
    [GRAPHIC] [TIFF OMITTED] T6579.018
    
    [GRAPHIC] [TIFF OMITTED] T6579.019
    
    [GRAPHIC] [TIFF OMITTED] T6579.020
    
    [GRAPHIC] [TIFF OMITTED] T6579.021
    
    [GRAPHIC] [TIFF OMITTED] T6579.022
    
    [GRAPHIC] [TIFF OMITTED] T6579.023
    
    Mr. Davis. Mrs. Ackerman.
    Mrs. Ackerman. Good morning, Mr. Chairman, Congresswoman 
Norton, Congressman Horn and Congresswoman Biggert. I am Arlene 
Ackerman, superintendent of the District of Columbia Public 
Schools. I thank you for providing me the opportunity to share 
the status of DCPS.
    At our previous hearing last spring, we shared with you 
what the school system was doing to build an exemplary school 
system. I recall you asking me on a few occasions, but 
particularly at that particular hearing, if school would open 
on time, and I answered yes. Indeed, school did open on time 
like it does across every other school district in this 
country. I am confident that we will never have to ask that 
question again, and it's such a basic question. What we want to 
focus on now are the larger issues that face our urban system 
as we try to provide our youth with the skills and knowledge 
necessary to turn dreams into reality.
    Since that hearing, we at central office and the principals 
and teachers and parents in each school have been busy with the 
reform agenda. Our focus is clear, and that is improving 
teaching and learning. We have put in place clear standards for 
what students should know and be able to do in all areas and 
all content areas. We have invested more in professional 
development and plan to extend and expand our efforts to reach 
every teacher with sustained learning opportunities.
    We have continued to work with the U.S. Army Corps of 
Engineers making important capital improvements. Full facility 
assessments have been completed for all schools, and we have 
begun plans for full school rehabilitation for one school in 
each ward next year while we work with the elected board on a 
long-range facility plan. For 1999, procurement actions for 
five roof replacement projects, the long-range master facility 
plan, and education specifications have been initiated. If we 
want to see our children learn, we need to assure a safe 
environment where principals and teachers have the adequate 
resources that they need.
    The District is continuing with a principal evaluation that 
sends a clear signal to principals that academic growth is our 
No. 1 priority. We have also implemented, though, this year a 
new teacher evaluation. Principals now have the ability to 
identify low-performing teachers, give them assistance, and 
should they not show signs of improvement within 90 days, the 
teacher can be dismissed.
    Our investment in instructional technology is bringing more 
computers to every school in addition to additional training to 
our teachers and support staff. In order to provide more 
instructional time for our students who we know need extended 
opportunities to learn, we have created a Saturday morning 
program across the District. We are proud to say that more than 
10,000 students attend our Saturday academies where we focus on 
reading and writing and math. We are making important changes 
and are preparing for a summer school where we expect and 
anticipate upward of 25,000 students to attend.
    Across the District, student achievement showed gains 
between the spring of 1997 and spring of 1998, and I'm 
confident that we will continue to see that kind of growth. 
Special education, however, continues to be an area that the 
deeper we go, the more challenges we seem to face. It is clear 
that drastic changes were needed and are still needed, and we 
are taking actions to try new solutions. We have had difficulty 
attracting staff to the District in this area as there is a 
national shortage of special ed educators, and many are 
skeptical to join a department that has had such a long history 
of neglect. We have developed, however, a new incentive package 
to try and become more competitive with surrounding 
jurisdictions.
    We are also working to grow our own staff with local 
universities and changing how we think about delivering 
services to students. After reviewing current practices and 
looking at other districts, we are now convinced that one of 
our problems has been that the local school has not been 
involved in the assessment process. We will see changes over 
the next month, and you will hear us announce changes over the 
next 30 days that will drastically change the way that we do 
business in special education. You will also see a realignment 
of and a redeployment of special ed staff, central office 
staff, as well as central resources that will go to the 
schools. I can only hope that the community will remain patient 
as we make these changes in many areas.
    One of the most important reform initiatives of this year, 
however, is the planning we have done for implementing the new 
weighted student formula. We are assuring that resources follow 
the students based on need and the needs of the student, and 
that schools have the opportunity to make decisions about the 
best way to use those resources. Across the District 
principals, teachers, and parents and community members will 
now make the decisions about how to allocate those resources, 
not central office. For the first time in this community, every 
school and every member of the public will know where the 
resources go and how the resources are being spent at each 
school as well as the logic behind how the schools decide to 
spend their resources.
    In the past few months, we have worked hard to develop the 
weighted student formula. We have had numerous community 
meetings to share the weighted student formula with the 
community, and we have made changes in central office to better 
support schools in the development of their school plans. Each 
school now has completed a full needs assessment, developed a 
school plan and a budget. Our principals, parents, and teachers 
have worked many, many hours over the past 2 months to develop 
these plans. The process has provided a powerful experience for 
our principals, parents, teachers, and community members to 
learn more about their school and chart a course for its 
future. We have heard many positive comments about this 
experience. We believe that giving authority to schools for a 
budget and staffing offer schools the opportunity to realize 
their dreams.
    One reason that we have been able to implement this reform 
is because of the change in how we as a system are to be funded 
by the city this coming year. We have created our school budget 
following the law that the City Council developed and passed a 
year ago. We are making sure that more resources now go to the 
schools. The law created a per pupil formula that funds the 
charter schools and the D.C. Public Schools in the same manner. 
The formula in the law is clear in determining and providing a 
methodology. We constructed our budget based on what the law 
generates, and we are proud to say that of the proposed budget, 
94 percent will go directly to schools and less than 6 percent 
to central's office. This is down from 15 percent 2 years ago, 
a central office budget that was at 15 percent.
    We have come a long way, and we still have a long way to 
go. Our reform agenda and budget request is based upon the law 
and meeting the needs of our students. We have closed the 
budget deficit, and we want to ensure stable funding as 
intended by the law. I urge you to support us as we shape the 
budget that will allow us to carry forth our reform agenda. We 
have made progress, and we are proud of that progress, but we 
do realize that we still have a very long way to go. Thank you.
    Mr. Davis. Thank you very much.
    [The prepared statement of Mrs. Ackerman follows:]

    [GRAPHIC] [TIFF OMITTED] T6579.024
    
    [GRAPHIC] [TIFF OMITTED] T6579.025
    
    [GRAPHIC] [TIFF OMITTED] T6579.026
    
    Mr. Davis. Maudine Cooper.
    Mrs. Cooper. Thank you, Mr. Chairman, Mrs. Norton, Mrs. 
Biggert. I'm very pleased to provide testimony to you this 
morning on behalf of the Emergency Transitional Education Board 
of Trustees, which I chair. Next month will be our 
superintendent's first anniversary, having held this incredible 
responsibility over the last year, and we want to congratulate 
her in advance of that anniversary, but also recognize that 
while her modesty and those of this panel view her progress as 
incremental, from what we know, sitting as the Board of 
Trustees, it is really incredible. The challenges that she has 
faced, the management by discovery in some instances, has made 
it more than just a small incremental activity. It really has 
been incredible.
    I want to say to you that we as the Board of Trustees view 
our responsibility as supportive of the mission of educational 
reform. This mission can be succinctly grouped into four core 
areas as defined by the Financial Authority: improved academic 
performance for all students; the promotion of educational 
equity; the institution of sound management practices; and the 
development of a safe, healthy and cost-effective environment 
in which our children can learn.
    Our role as trustees is that of a policy-oriented support 
group and not one of micromanagement, and certainly not 
micromanaging the superintendent and her staff. Our job is to 
support her by marshaling the forces that we bring to the 
community, that we bring to this task by virtue of our roles in 
the community.
    As you know, Mr. Chairman, and Council Member Norton 
particularly, we are not educational experts, and I think we 
were selected for that reason. The revelations found in 
Children in Crisis serve as the backdrop by which we function, 
and we take that seriously.
    So we are very pleased with the superintendent's 
performance, but, again, we know personally of the challenges 
that she faces as she tries to improve the educational activity 
for 71,889 students in our system.
    My presentation will follow the six summary areas, Mr. 
Chairman, that you outlined in your questions to us. No. 1, the 
DCPS future capital improvement plan. On January 28, the 
superintendent proposed and the trustees approved a 
comprehensive capital improvement plan, which, I believe, was 
shared with your office. At any rate, the goal of that plan was 
to make our schools engaging, compelling, effective, and 
efficient environments for learning, teaching, working, and for 
community activities. We are very proud of that, and the 
preliminary total budget for years 1 through 10 is 
approximately $1 billion.
    The plan encompasses everything for modernization, public-
private partnerships and ADA improvements to name a few. I 
might add that includes the toilets that you have heard so much 
about lately.
    Item No. 2 was the update on DCPS's academic plan. As to 
the academic plan, the trustees have supported the curriculum 
thrust that our superintendent had put forth: ending social 
promotion; developing more challenging academic standards; 
creating new report cards and new school profiles; increasing 
reading and math programs; and, of course, as you have already 
heard, the Saturday STARS program and the SAT 9 students, who 
will be working in those Saturday programs for 3 hours, 
approximately 3 hours; as well as now a program that is going 
on on Saturdays besides the summer program, the development of 
the Summer STARS program in which more, as you know, over 
22,000 students, attended for 6 weeks. We have also adopted a 
new K through 6 reading and math series. You heard about the 
weighted student formula.
    Item 3 that you presented to us was an update on the DCPS 
technology plan. You already heard something about that from 
various members of this panel. We are very pleased to see that 
the city administrators and superintendent are proposing again 
to make sure that we have adequate technology in our schools; 
however, there are some problems. Procurement falls under the 
city, as you know. This means that DCPS is required to rely on 
city administrators and city procedures to purchase fundamental 
items for its students. In a word, this is a ludicrous process.
    We have got a superintendent who has to rely on others, in 
my judgment, second-guessing her in terms of what she needs and 
when she needs it. Given this what I call a bureaucratic and 
convoluted paradigm through which we attempt to purchase 
instructional materials for our children, DCPS is literally 
held hostage to the city. Because of this we cannot purchase in 
a timely fashion such fundamental items as computers and, 
indeed, textbooks.
    For the record, because of this choke hold in our 
procurement processes, there are now over 588 backlog 
requisitions that do affect the education of our children. 
These requisitions are simply caught up in someone's 
bureaucratic pipeline. Again, if there is a problem, it should 
be brought to the attention of our superintendent and not 
allowed to languish. The procurement should indeed report to 
the superintendent, not to the city. If we have the 
responsibility, then we need the authority.
    Given the 1997-1998 school year, DCPS has developed an 
educational technology plan. It is my understanding that it has 
been approved by the Federal Department of Education. It is 
entitled Beyond 1977--Children First. We believe that this is 
very critical and a true testament of the superintendent's 
support by the Federal Department of Education.
    As you also know, we are already on the Internet and have 
e-mail.
    Finally, I will quickly go through the other question that 
you raised on teacher certification. We have been informed by 
staff that all teachers employed by DCPS hold certification.
    I will sum up. We are very pleased with that, and we wanted 
you to know that on the record. We are doing all kinds of 
things to indeed increase those student bodies.
    On No. 5, I will just indicate that we do discuss the 
budget, but I will say that the fiscal year 2000 budget that is 
stated at 704 million is incorrectly stated. That is a total 
budget including our grants and projects. The accurate number 
is $627.5 million.
    In terms of the charter school, that has already been 
discussed, and this is in my testimony.
    I will conclude that by stating that we have done something 
else as trustees. Working with the Federal City Council, the 
D.C. Chamber, and the Board of Trade, we have instituted what 
we call two very active business groups that work with us to 
help us bring in line the school system and the needs of our 
business community. After all, we are training these young 
people to go into the community as workers and not as those on 
the dole. With this alliance, we are concentrating on school to 
careers, literacy, technology, and the arts. It is an 
incredibly fantastic bunch of people, and we hope that they 
will be here at some point to talk to you as well. I thank you 
for your time.
    Mr. Davis. Thank you very much.
    [The prepared statement of Mrs. Cooper follows:]

    [GRAPHIC] [TIFF OMITTED] T6579.027
    
    [GRAPHIC] [TIFF OMITTED] T6579.028
    
    [GRAPHIC] [TIFF OMITTED] T6579.029
    
    [GRAPHIC] [TIFF OMITTED] T6579.030
    
    [GRAPHIC] [TIFF OMITTED] T6579.031
    
    [GRAPHIC] [TIFF OMITTED] T6579.032
    
    Mr. Davis. Let me just ask for Mayor Williams and 
Councilman Chavous, this idea about the procurement not 
reporting to the superintendent and holding the school system 
hostage. These are ongoing fights that we used to have out in 
my county as well and is probably repeated across the country. 
But even at the Federal level, we have Cabinet officers having 
to do procurements through GSA. In some ways--Mr. Horn has 
left, but he has tried to take a leadership role in trying to 
make sense out of this.
    Do you have any reaction to that in terms of the school 
procurements not having to report but basically go through the 
city and not having their own autonomy in those areas?
    Mr. Williams. I could let Councilman Chavous and Connie 
Newman speak on this, but I know that I was at a meeting of the 
Authority----
    Mr. Davis. I didn't see him grabbing the microphone.
    Ms. Newman. We are going to talk to her later.
    Mrs. Cooper. I am a volunteer, sir.
    Ms. Newman. We all are.
    Mayor Williams. But in conjunction with the Council, the 
Mayor's office, the Authority, we have been bringing the 
managers up to the Authority to look at what assistance they 
need from the Authority in pursuing our management reform 
agenda. So we had the director of procurement up there, and in 
the process of talking about general procurement issues, some 
issues were raised about the schools. I think the general 
understanding there is that we were on the road to giving the 
schools the authority and responsibility to get their job done 
while still maintaining some central system control. I thought 
that progress was being made.
    Mr. Davis. Let me just add that I can remember just 
anecdotally, which is a tough way to do this, where the schools 
one year where they had the autonomy didn't order the books on 
time, and we have gone through that as well. It's a balance as 
we try to transition back. I think the Mayor and Council 
probably want to be careful.
    Mr. Chavous. Well, Congressman Davis, this has been an 
ongoing problem. The procurement responsibility was taken away 
from the schools last year, frankly, because the procurement 
process inside the schools was broken. Books weren't being 
ordered on time, and, again, that is something that predated 
Mrs. Ackerman.
    What we have found this year is there has been what I would 
call a creative tension between the central procurement office 
and the school system, so much so that we have an issue 
regarding certain books being ordered even this year. Ms. 
Newman and I, and I know that she wants to speak to it because 
she is grabbing my arm here--but because this is something--you 
hit the nail on the head. Ms. Newman, Mrs. Ackerman and I have 
talked about this excessively. We really want----
    Mr. Davis. You need to include Mrs. Cooper in your 
discussion.
    Mr. Chavous. She has been. When you say balanced, 
Congressman, that is the key. Right now during this budget 
process, we want to come up with a way to give the schools 
enough autonomy so that central procurement doesn't bottleneck 
the process. While they are reshaping their own procurement 
capabilities, we want to make sure that there is legitimate 
safeguards in the process. We are working through that, and I 
know that Connie Newman wants to speak about it.
    Ms. Newman. Just a second. I don't want to make light of 
the observation that Mrs. Cooper made. We have had many 
conversations with the superintendent. There is a new 
procurement system going into place. There is always difficulty 
with a new system in place.
    My argument is that we need to deal in the short run with 
the immediate problems of the textbooks and the facilities, the 
Corps' contract, and then we need to see whether or not this 
new system will work, because saying that it should move, the 
authorities should move to the school system, does not address 
the issue about how the school system will run it. They don't 
have the people to do it either. I think that it's something 
that there is always tension on this issue, and I think it's 
worth a conversation, but maybe not too much.
    Mr. Davis. I think this is a tension that exists in school 
systems versus city councils across the country, and getting it 
right--it is never right in somebody's eyes. I think Mrs. 
Cooper has brought this to everybody's attention, and I think 
we have aired out what the difficulties are in trying to work 
together.
    Let me ask, if I could, Mrs. Ackerman, I look at a school 
system and try to measure results. I want to try to look at 
where we were maybe a couple of years ago and where we are 
today. You mentioned the test scores, and if you could get 
those to us, I'd want to put those in the record. I didn't 
really see the test scores. Was it in every school, was it up 
across the way, was it uneven? But test scores are certainly 
one way of measuring progress. Yeah, open the schools on time, 
that's the way of measuring progress given where we were. You 
look at the state of the facilities of the schools and a lot of 
work has gone into that. That is a way of measuring progress.
    What about safety in the schools? Have we made progress 
there over the last year?
    Mrs. Ackerman. We have put in place--we have. Our incidents 
are down, and we can give you those, get you those.
    Mr. Davis. Are they down significantly or just marginally?
    Mrs. Ackerman. I would say--I wouldn't say significantly. 
They're down enough where we can say we're making progress, and 
we still need to put some more things in place, but they're 
down enough where I can count that as one of the successes, 
that we are showing some progress. In addition----
    Mr. Davis. Let me just stop right there. If we're making 
progress there, why are we replacing the contractor with the 
police department? I'll ask Mr. Chavous, and I have a couple of 
other questions for you but I just thought----
    Mr. Chavous. I think that we are making progress, but I 
think we're spending a lot of money. That contract is $9.5 
million and we get 315 security officers, and in looking at 
what other school districts are doing; namely, Baltimore and 
New York, they have shifted that responsibility over to the 
police. The key, though, is you have to have the right approach 
by the police so they will work with the superintendent and 
make sure that teachers and principals don't feel like they're 
under occupation and that there is some seamless continuity 
between the public safety efforts inside and outside the 
school, and so the reason why we did it is really for more 
efficiency and hopefully for not as much cost.
    Mr. Davis. Well, I just don't want you to feel that, when 
it comes to school safety, we do it on the cheap and I really--
--
    Mr. Chavous. No, we're not going to do that, but the other 
thing is, we felt that it was important to bring all of those 
kind of efforts under one shop so that you had the school 
security, you have police officers and you also have crossing 
guards. I mean, you have the whole apparatus there working to 
support what the school system is doing and working with the 
local school.
    Mr. Davis. All right. Well, we're going to be watching 
because we've made measurable progress and now you're shifting, 
and we want to continue to see that. I mean it's a Council 
decision at this point and it's just from our perspective 
something that we're going to want to watch very, very 
carefully to make sure that we continue progress, if you 
understand.
    Mr. Chavous. I understand. Now it's on my head.
    Mr. Davis. That is a nice way of saying it. I'll get back 
for another round of questions, but I'm going to yield to Ms. 
Norton and then to Mrs. Biggert.
    Ms. Norton. Thank you, Mr. Chairman. I want to say that I 
have been informed that Wilma Harvey, the president of the 
school board, is ill. Two members of the school board are here, 
Dwight Singleton, the vice-president and new board member who 
represents ward 4, and Angie Corley, who has long been on the 
board who represents ward 5. If we have any questions for the 
board, I'm sure they would be able to answer them. We do have 
Ms. Harvey's testimony however.
    I have a question for--first for Mayor Williams and 
Councilmember Chavous. First, let me commend Councilmember 
Chavous for the oversight you are doing of the public schools, 
and I know that in the budget discussions you are bearing in 
mind the importance that everybody in this city attaches to the 
children of this city. I have no doubt about that.
    The Mayor testified--and let me also commend you both for 
what is reported to be good discussions going on between people 
who want a tax cut and the Mayor who wants to make sure that it 
is prudently done and that sufficient investment occurs in the 
city, and I informed my colleagues that there's every reason to 
believe that those are the kinds of discussions that 
legislators and the executive always have, and I'm very pleased 
at what is the reported progress. So I don't have any problems 
there.
    I have a question that flows from the Mayor's testimony. He 
testified that he was recommending eight schools a year be 
renovated. A fourth--that's something that parents will be glad 
to hear, because the ad--let me just add--the ad hoc way of 
going at schools, based on which one was falling down first, 
has been a real frustration in the city.
    He testified that he desired a 4 or 5 percent raise for 
teachers. All I can say is good luck. Because with the shortage 
of teachers in the United States, with big city schools being 
the last place many recent graduates want to come, my own sense 
of what Federal Government can do, because I don't think cities 
are going to be able to do this for themselves, is to help pay 
such a premium for teachers so they can really recruit, I don't 
see how you're going to be able to be competitive with easier 
places to teach like Prince George's and Montgomery, and 
Fairfax, but I see where you're going.
    Your testimony said that your budget included $33 million 
for children and youth for after school programs, noting that 
that has not only academic effects but that's when most 
juvenile crime takes place. Now, the reports are that--the 
concern has been that we have a surplus, and the proposal was 
to use the surplus to give back money to taxpayers and that 
some balance was going to be sought between doing that and 
taking care of what has been some disinvestments, to put it 
mildly, in the district.
    Now, when I say disinvestment, that is not to say the 
District has not invested. The District is heavily invested in 
its bureaucracy, hasn't invested in employees, but it sure has 
had money, and it sure has invested it all around, and finally, 
folks just got tired of that. But there's been lots of 
investment in the district, but now that there's a surplus, 
your budget talks about investments, Council talks about tax 
cuts. I recognize that part of the problem was that this was 
going to come out of the surplus, but then we're told, well, 
don't worry, this will now come out of the operating budget, or 
at least that's what the newspapers report.
    What I would like to ask you, and with Mr. Chavous here, is 
whether or not with the kinds of investments you're talking 
about which would not be investments in the bureaucracy, 
investments in eight schools per year and, and the renovation 
of eight schools per year, a 4 or 5 percent raise for teachers, 
$33 million for children for their after school program, 
whether investments like this are still on the table, as you 
discussed, taking money from the operating budget and dealing 
with the tax cut and somehow bring it all in balance? I'd like 
some indication of whether or not you--what you testified here 
today, which was in your original budget, is going to be 
possible, given the negotiations that are going on.
    Mr. Williams. Yes, Ms. Norton, I'm actually confident that 
we're making progress and that we can maintain this emphasis on 
school construction modernization. We can maintain this 
emphasis on our children. There are differences--we're working 
out differences on how we program that and the structure of 
that, but there's, I think, a joint commitment to our children 
and our out of school programs for children, and then, finally, 
that we work on sizing this tax plan and staging this tax plan 
so that we can maintain these investments while doing the tax 
reduction.
    So, in other words, we can do it in a fiscally responsible 
way, we can do these improvements we talked about and maintain 
these programs out of operating, including the teaching raise.
    Ms. Norton. Mr. Chavous.
    Mr. Chavous. Well, Congresswoman Norton, first of all, 
thank you for those kind remarks.
    This is one area where the Mayor and I in terms of our 
investment in children and reinvesting in the future of the 
people of this city, this is one area where the Mayor and I 
have really been on the same page, and I can tell you that 
while I'm one of the strong advocates for this tax cut proposal 
in the Council that I would not have signed on if I thought it 
would cut into some of these new investment opportunities, and 
frankly, the discussions are going quite well between the Mayor 
and the Council.
    And we feel in this case we can have it all, that we can, 
based on--we can't project too far out in the future in terms 
of the surpluses because it is too much speculation, but we do 
know that if things proceed and if the rebirth and resurgence 
in this city continues, then we should be able to reduce the 
tax rates consistent with the wishes of the Council, and while 
at the same time continue with the additional $300 million to 
the base in programs.
    The Mayor and I met yesterday morning, early I might add, 
on this $33 million children initiative. We're going to work 
that out. We've talked about the teacher raises, and we're 
going to find a way to work that out. The Council markup in the 
committee was--stayed pretty true to what the Mayor wanted. 
There were no cuts into that, and the feeling is that we'll be 
able to make it all work.
    I might add one other point is, this is part of the 
creative tension that occurs in a democracy. I was really 
disheartened to hear reports that because the Council feels one 
way about tax cuts and the Mayor feels another way, it may 
threaten home rule. Well, that's the essence of home rule and 
now that we're having these discussions we're going to work it 
out, and I think it shows that this city is on the rebound, 
we're moving in the right direction with your leadership, and I 
appreciate your remarks in saying, look, you all work it out, 
but work it out and don't cut into the investment of the 
people, and that's what we're going to do.
    The Mayor and I are on the same page, and I tell you one 
thing, the Mayor and I have really been fighting on this new 
school construction. I mean, I quarrel with some of my 
colleagues on how far we should go, and where we want to go as 
far as the Mayor and I have suggested, that's 8 to 10 schools 
over the next 10 years. So I'm more heartened by this budget 
process than any I've been in my 6 years on the Council.
    Ms. Norton. Thank you very much, Mr. Chavous.
    Mr. Williams, I do think--I mean, there was some reports 
about cuts and so forth. I do believe that there are, probably 
are even as we talk about investment, and I know this is the 
direction in which you're moving, even as we talk about 
investment, there is no doubt in my mind that there need to be 
further, ``cuts,'' but they are cuts in the bureaucracy.
    I refer to them as streamlining because I think as you 
consolidate, and if you build yourself a modern government, the 
government is--there are going to be cuts. There are going to 
be cuts, and of course, then there's going to be investments, 
and this may all come out in the wash.
    The only concerns, and ones you seem to be handling very 
well, are the pace so that investment occurs along with any tax 
cuts that also occur.
    Thank you very much, Mr. Chairman.
    Mr. Davis. Thank you. And let me just add--I know the Mayor 
has to leave, but Councilman Chavous, I appreciate you putting 
into perspective, these aren't arguments over tax cuts, but it 
is part of the process, and I don't know how it could threaten 
home rule because you're handling it better than we do up here 
on the Hill, but I appreciate your clarifying that because we 
get this back and forth, somebody's not for it and somebody's 
all for it or there's some big conflict.
    And as we noted earlier on, when I met with Councilmen 
Evans and Catania on the whole tax cut package, this is 
something that is going to be worked out and it needs to be 
discussed, it needs to be staffed out, and as we get those 
numbers in, it moves around a little bit, but grateful to both 
of you for your leadership.
    Mr. Mayor, you're excused. Thank you.
    And let me just welcome, if I can, 5th grade class, G&T 
class from Rockledge Elementary School out in Prince William 
County in my district, Ms. Norton, who are here today touring 
the Capitol, and we appreciate you all being with us. This is 
part of the G&T. They do the school paper, and they're kind of 
the press corps. So if I'm going to get good press out there, 
I've got to perform today.
    I now yield to the gentleman from California, Mr. Horn.
    Mr. Horn. Thank you very much, Mr. Chairman and ladies and 
gentlemen. It's good to see all of you because it looks like at 
last we have a team and people cooperating and working with 
each other, and that's certainly good news for the people of 
the city and the Nation in which this is the world's most 
beautiful city, and we want to keep it that way, and we want to 
help you improve it.
    Let me ask a few general questions on security in terms of 
the schools. I come from Long Beach, CA, where I think under 
Carl Cohen's leadership as superintendent, and I'm sure, 
Superintendent Ackerman, you probably know Carl. He's done an 
outstanding job, as have a number of superintendents before 
him, and one of the things we had to grapple with was school 
security, and I'd just be curious the degree, Superintendent, 
of gang-related incidents on the playground or in the 
classrooms, any way you want to measure it. I mean, could you 
give us an idea of how much of that activity occurs to the 
detriment of----
    Mrs. Ackerman. I don't have that off the top of my head. I 
have a lot of information.
    Mr. Horn. So you can provide it for the record?
    Mrs. Ackerman. But I will provide that for the record 
because we do keep those kinds of incidents, also. But we have 
done a number of things to address the issue of school security 
and safety in the schools, including of course putting in 
additional technology so that we can ensure that we have safe 
environments. We have cameras in almost all of our high schools 
now. The plan is to put them into----
    Mr. Horn. Do you have the type of thing we go through at 
airports which would detect----
    Mrs. Ackerman. We do. We have the new metal detectors, 
similar to what we have in our airports.
    Mr. Horn. So that's controlled, where people enter through 
one gate?
    Mrs. Ackerman. Right.
    Mr. Horn. Let me ask you about the clothes situation. Often 
gang colors show up and that creates problems and all the rest. 
Has any thought been given to a school uniform?
    Mrs. Ackerman. Many of our elementary schools and about 
half of our middle schools do have a uniform policy, and we are 
encouraging that. I'd like to see every school, if you really 
want to know the truth, implement a school uniform policy. As a 
former principal, I do know that that does help the climate. It 
helps keep the attention from what people are wearing, to focus 
on what's happening in the classroom and the teaching and 
learning.
    Mr. Horn. You're absolutely correct because, you know, if 
we could keep people from--young people from the peer pressures 
of having to get the Nike shoes that the Jones and the Smiths 
have--30 years ago, if somebody would be for a school uniform, 
I'd say they're crazy, but given the times we live in, I think 
it's just prudence. President Clinton came out to the Long 
Beach Unified School District, met with people, was suitably 
impressed with it, and he said in his remarks that Mrs. Clinton 
had been telling him to do that for 20 years, even when he was 
Governor, and it has worked, and we don't have that kind of 
incident occurring over gang colors, if you will, and so I 
would hope that you would be pursuing it.
    Let me ask you, what's the teacher/student ratio in 
kindergarten and first grade?
    Mrs. Ackerman. 20 to 1 with an aide.
    Mr. Horn. And I bet that's made a lot of difference.
    Mrs. Ackerman. It has. In addition to the focus on 
standards, 20 to 1 or lower class size without teachers who 
teach differently without a curriculum standards who get us 
increased student achievement, but I think it's a combination 
of having the lower class sizes, as well as a really clearly 
articulated curriculum and standards in place that's helping.
    Mr. Horn. Now, it's your plan to move up the scale and 
what--where does it go higher than 20?
    Mrs. Ackerman. It's the highest at the--believe or it not, 
it's the highest at the intermediate grades. We're looking at--
I see that in our local school plans with the new weighted 
student formula, many of the schools are lowering their class 
sizes, either--not necessarily with the teacher but with 
another adult so that the class sizes will, will see them lower 
probably next year by choice. The schools, remembering the 
weighted student formula, firmly get a chance now to decide if 
they want it lower than the District average.
    Right now it's about 25, I believe, to 1, to 26 at the 
intermediate level. I really believe that at that level they 
still need smaller class sizes. It's really why I think our 
summer school program worked very well. The class sizes were 
down to 15 to 1.
    Mr. Horn. Let me ask you, is there any parent involvement 
in the selection of principals?
    Mrs. Ackerman. Yes. We start with--in fact, in the last 
year we have put in place a process for how we hire principals 
and teachers and it's consistent----
    Mr. Horn. I'm going to have to move because I see that 
yellow light facing me, but I've got one last question for you, 
and that is, to what degree is the educational system 
coordinating its efforts with the recreation system and the 
healthcare system in terms of the school grounds? What's 
bothered me for 40 years at least is the schools are sort of 
closed down at 3 o'clock, and we ought to have them as 
community centers where both parents and the pupils could get 
their appropriate shots or whatever it is that the health 
department's going to provide to keep people healthy, and I 
just--it seems to me with all those facilities it's a great 
place to also have recreation programs and keep people, young 
people, occupied. What's your reaction?
    Mrs. Ackerman. I really do agree with you there in that 
it's really important that we integrate those services and 
provide wraparound services for our young people, and that 
means that we have to then work with our other agencies. I know 
that Councilmember Chavous is working with us with that, and I 
want to say, though, last summer, that's one of the things that 
we did in planning our summer school program is we brought 
everybody to the table, and so we had the academic programs in 
the morning and the extended opportunities for them to work 
with our recreational programs in the afternoon, but our 
recreational staff were at the table. They all were there with 
us as we planned the program, and we're doing that again this 
year. I'd like to see that extended throughout the school year. 
It's important that we align our resources that way.
    Mr. Horn. Well, thank you very much, and I wish you well.
    Mrs. Ackerman. I do want you to know that I did take a 
visit to Long Beach, and I was very, very impressed with the 
programs that were there.
    Mr. Horn. Thank you.
    Mr. Davis. Thank you, Mr. Horn, and I now recognize the 
gentlelady from Illinois, Mrs. Biggert.
    Mrs. Biggert. Thank you, Mr. Chairman. I was thinking back 
to the Chicago school reform when you mentioned that the 
schools opened on time because of the start of the Chicago 
school reform. That was the first time in years that the 
schools opened on time, that there wasn't a strike and they 
didn't come to the legislature to ask for more money. So I 
think that is the first clue that a school system is on the 
right track. Of course, we did put in some collective 
bargaining barriers for a certain period of time to ensure that 
everyone would be there.
    But one thing that hasn't been mentioned too much, and I 
think is so important to a school community, and that is the 
involvement of the community in the businesses and the parents 
and the teachers and the school boards. Has there been any 
change in trying to bring in the parent involvement to a 
greater degree?
    Mrs. Ackerman. We have tried to do multiple strategies with 
parent involvement, and for me, I really do believe, again, as 
a former principal and teacher, that authentic parent 
involvement happens at the local school site. That's where you 
want parents involved. That's where--their investment lies in 
those schools. The weighted student formula was one of the ways 
this year that heard parents who had been involved in that 
process, if they weren't on the local school team, and we had 
parents actually developing the academic plans. They were 
involved in the community hearings and the community meetings 
that were held, both at the beginning of the process at the 
end, and I think that's one way.
    We have also put in place a parent affairs office. We've 
trained 50 parents to go out and to work with other parents. 
We're training another 50 so we'll have 100, a cadre of 100 
parents, that will be training over the summer and working with 
parents.
    I think that we know the importance of having parents 
involved. I think we tried to do a lot about getting 
information out to parents about what we're doing, the 
standards, and for instance, we'll be on the webpage and we'll 
get distributed to parents next year.
    We still again have a long way to do this goal because 
often parents feel intimidated about schools, so we're trying 
to change it from parent involvement to parent outreach so that 
the schools are outreached.
    Mrs. Biggert. We went back to such basics as that they had 
to come to the school to pick up a report card.
    Mrs. Ackerman. We did that, too. We also this last year 
made it very basic that parents and students had to come pick 
up their school schedules. We also put in place this year new 
hours for parent/teacher conferences, and we saw a significant 
increase in the number of parents who participated just by 
changing the hours from 12 to 7.
    Mrs. Biggert. What about the dropout rate, has that 
changed?
    Mrs. Ackerman. One of the things that I discovered upon my 
arrival is the lack of the data systems that were in place. I 
think we have faulty data around the dropout rates. So this is 
really the first year that we have a clear methodology for 
tracking attendance, at the high school levels in particular, 
so we can really look at dropout rates. We're also looking at 
now the data from the class that is graduating this year and 
tracking it back to the ninth grade, but the data systems 
weren't in place. So when I asked simple questions like what's 
the dropout rate, I got different answers. I think you will see 
that we will have that information after this year.
    Mrs. Biggert. Is that involvement too where you've got 
enforcement of your enrollment eligibility and residency 
verification?
    Mrs. Ackerman. I think all of that. Now that we have a 
methodology in place to really accurately count and track our 
students, we'll know which students started and which students 
are not there, which students were not supposed to be there, 
and we'll have accurate numbers, but a lot of what we're doing 
and have been doing over the last year and a half really has 
been putting in place those data management systems that 
weren't there.
    Mrs. Biggert. Are students able to go from school to school 
then?
    Mrs. Ackerman. They have open enrollment.
    Mrs. Biggert. And is a public charter school, is that what 
that is, or are they relieved from all of the legislation or 
the rules and regulations of a regular school?
    Mrs. Ackerman. They have some different----
    Mrs. Biggert. I just wondered if it was more of a school 
that might focus on math, like a magnet school, that students 
would go there because they were--that was their interest.
    Mrs. Ackerman. They generally have a theme. The public 
charter schools have a theme.
    Mrs. Biggert. Thank you very much.
    Mrs. Ackerman. Thank you. I also want you to know we went 
to Chicago and some of the things that we put in place, I don't 
see any reason we need to reinvent the wheel when there are 
good things going on in public schools across the country.
    Mr. Davis. Thank you. I'll just ask a few questions. I'm 
going to ask a series of questions on special education, 
because I think you candidly admitted that there's some 
shortcomings there that we need some improvement in that area. 
What's being done--what are you trying to do to produce 
tangible results there?
    Mrs. Ackerman. In terms of what are some of the new things 
we're trying to do, what we really worked on in the last few 
months, we had on loan from Montgomery County, we did--a 
special assistant who has really worked very hard to put in 
place a whole compliance structure for listening--for putting 
in place and making sure that our hearings get heard in a 
timely way.
    The things that we're doing now is really looking at how to 
put in place the assessment process at the school site, as well 
as the IEP development. It hasn't--for some reason it certainly 
is not a policy, I found out. It's been a practice that the--we 
call them Form 6s, but it really is the method that triggers 
the process, gets sent from the school to the central office, 
and there's a central office team, and there are a variety of 
teams--assessment teams. We've now put that back into the 
school site because that's where it happens in school districts 
across the country. I've never been in a place where the 
assessments didn't happen at the school.
    Mr. Davis. Well, getting ahold of special education will 
have ramifications throughout the system, and I just ask that, 
what's the current cost of special education in dollars as a 
percent?
    Mrs. Ackerman. It's about $170 million.
    Mr. Davis. What percent would that be then?
    Mrs. Ackerman. It's more than a quarter of our budget, 
about 30 percent.
    Mr. Davis. How much of that would you say is obligated to 
out-of-school placements?
    Mrs. Ackerman. We anticipate about $40 million.
    Mr. Davis. And how about attorney's fees?
    Mrs. Ackerman. Last year was around $7 to $8 million, more 
than $7, less than $8.
    Mr. Davis. Now, last year as you know, at the request of 
the school system, legislative language was adopted which 
extended the timeframe for evaluation and placement of students 
requiring special education services from 50 to 120 days. Has 
this change substantially reduced the backlog?
    Mrs. Ackerman. We had a backlog of about 184, and today we 
anticipate that that backlog will be diminished because it's 
now in the schools. We've put quotas on this, and I don't 
anticipate that this will be a problem in the future because 
we've changed the way we are monitoring the assessments. In 
addition, we have now put quotas to end the backlog of 
assessment by the midsummer. So we will see that disappear, 
too.
    Mr. Davis. Now, do you think the capacity exists to deal 
with special needs students within the school system itself or 
do you think you're going to be substantially sending these 
kids out?
    Mrs. Ackerman. I think that we--what you will see next year 
is a real effort to develop programs and to have programs put 
in place at the different school sites, and we are aggressively 
moving forward with that for next year. So I think that you 
will see again, over time, that number diminish as we put in 
place a way to monitor, even doing the annual evaluations to 
see if we have programs in the school district, you will see 
that we will have alternatives for parents. Right now, we don't 
have the programs in place. We've got to put the programs in 
place, and there are several that will be in place by 
September.
    I was just given a correction, the attorney fees last year 
were $12 million.
    Mr. Davis. OK. With regard to the capping of attorney's 
fees related to special education cases, what's been the effect 
of that legislation? What's been the impact in addressing the 
backlog?
    Mrs. Ackerman. I know it's lower than it was last year but 
I can get the specifics for you and send them to you.
    Mr. Davis. Well, let me say--tell you why it's important is 
they've been up here.
    Mrs. Ackerman. I know.
    Mr. Davis. And there's a lot of pressure put on Members--
it's a very, very influential group with some Members of 
Congress, and they've made a case to a lot of our Members who 
want me to specifically ask you, if you're not saving 
appreciable money on this by putting the cap on, then why do it 
and not let the----
    Mrs. Ackerman. OK. We will be able to give you those 
numbers.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T6579.033
    
    [GRAPHIC] [TIFF OMITTED] T6579.034
    
    Mr. Davis. OK. Has the school system contracted with 
outside firms that represent the DCPS in the special needs 
administrative process?
    Mrs. Ackerman. I'm sorry?
    Mr. Davis. Has the school system contracted with outside 
firms that represent the public schools in this special needs 
administrative process? In other words, are you handling these 
administratively within the system or are you contracting some 
of that out?
    Mrs. Ackerman. We do some of both. We have contracted some 
services out.
    Mr. Davis. OK. I mean, there's nothing wrong with that. I 
think, when you come into a system that's completely broken 
down, you do what you have to do.
    Mrs. Ackerman. Yes.
    Mr. Davis. And this was a mess, and just getting it 
stabilized, it doesn't happen overnight, and we tried it at the 
congressional level to help you with some things.
    Mrs. Ackerman. And it has helped, it really has, and I want 
to, at the end of this year, show you how it has helped and 
where you will see the differences.
    Mr. Davis. Well, it's important we see that, and I'll tell 
you, in the appropriation process, I suspect there will be a 
run on the attorney's fees and the sooner you can get 
information up here to make your case, I think the better off 
you're going to be.
    Mrs. Ackerman. I was just passed a note. We're now at about 
$2 million, $2\1/2\ million. This time last year was at 7, so--
--
    Mr. Davis. In attorney's fees?
    Mrs. Ackerman. Uh-huh.
    Mr. Davis. You're paying out. OK.
    Thank you. Let me yield now to my ranking member, Ms. 
Norton.
    Ms. Norton. Thank you very much, Mr. Chairman. I have a 
question for Ms. Newman, but before, just to followup on the 
chairman's questions on special education, actually, as a way 
to get into whether or not you have been able to deal with the 
management problems of the school system under the present 
managers.
    Now, the report is that clearly you brought in somebody 
from Montgomery County--you had in place a way you wanted this 
matter dealt with. But in point of fact, you had to put three 
administrators, or three managers I suppose, on administrative 
leave and you did so. I commend you, where instead of hemming 
and hawing when people haven't met, as was reported in the 
newspapers. We can understand how troubled this area was but no 
one said, I have to take real action. I mean the basics were 
reported at least in the paper. They go to data correction, how 
money is being spent, and you brought in a 90-day action plan.
    I really wonder if you can really manage the school system 
from the top that way, and my question is whether this 
indicates that you have weak managers underneath you throughout 
the school system, whether you wait until somebody does what 
apparently the managers did here, which is fail utterly. You 
just had to give them an F. Is there not a more proactive way 
to, in fact, get a competent band of managers who from the get-
go who will set out to meet your goals and here, of course, it 
was very serious. It was the most broken part of the school 
system and the most disadvantaged children in the school 
system, but are we in for a kind of management failure, 
department by department, despite your own very focused 
approach or do you have a plan to recruit managers who are able 
and competent enough to, in fact, carry out your own goals and 
plans?
    Mrs. Ackerman. That is a good question. It's a difficult 
question for me to try and answer. It is--I said it's been 
troubling. It has been. In addition to looking at areas where 
people--the competency levels, I find that I'm trying to break 
through a culture of behaviors, lack of accountability, secrets 
that people know that I had to find out, and so it's important 
that I believe that I take action. We do have a 90-day plan 
that's in place. Over the next--within the next 30 days you 
will hear a reorganization, not even a reorganization, probably 
a dismantling of the program as we know it, with some movement 
of managers who are currently in place as we try to put in 
place a structure that really does support the schools, as 
opposed to a central office, bureaucratic kind of central 
office structure.
    Special ed is, you know, in many areas I have found this 
culture of things that are there that I have not seen in any 
other place, behaviors that have been there, sort of practices 
that have been ignored or people turn their heads, and one by 
one I've had to tackle them, and the way to tackle them is to 
say, this is not acceptable and then to start over again.
    I believe that in the next 90-day plan you will see the 
starting over again with special ed. Now, that will put us in 
some other--there will be some other rippling effects from 
that, but I think we can handle that as we've done with 
personnel----
    Ms. Norton. What do you mean by rippling effect?
    Mrs. Ackerman. Well, when you're making those kind of 
drastic changes you have to have an infrastructure there to 
support it. So, as you pull one way, another one has to be in 
place, and it may not be as strong for a while because you're 
putting new people there. So I think that unfortunately it will 
take sort of day-to-day oversight for me until it's there and I 
can move out and we have at least somebody there in the 
directorship that can handle this.
    Ms. Norton. Are you evaluating your managers the way the 
Mayor, for example, has said he's going to put performance 
goals on his managers and evaluate them so that people know up 
front that they have to produce?
    Mrs. Ackerman. Which is why----
    Ms. Norton. Management in place in the school system among 
managers?
    Mrs. Ackerman. It is and I focused initially on principals 
and other central office staff. You will see now the focus 
squarely on special ed, and you will see changes in the 
management structure within the next 30 or so days. By the end 
of May you will see major changes.
    Ms. Norton. Let me commend Ms. Newman and the Control Board 
and Ms. Cooper and the Board of Trustees for their work in 
trying to move toward a transition back to the elected school 
board, and of course, the Control Board has a transition plan 
and is trying to structure that in a very responsible way 
because, of course, if the public sees any reversion to type, 
that that would mean that all of the good work that's been done 
would be lost.
    There was some initial concern that the short and long 
term, that there were short- and long-term goals but that the 
first goal of developing a mission statement had not been met 
on time. Can you tell us anything about whether that goal has 
been met at this time and whether other goals are being met on 
time and how the process of meeting the goals necessary for 
transition are proceeding?
    Ms. Newman. Well, I'd like to start by saying I am now 
optimistic that we're going to be able to work through the 
transition with the elected school board and the emergency 
trustees.
    What did happen was that there were two full day retreats 
with the elected school board where they started working 
through the transition plan. They had to become comfortable 
with it. They also asked for two facilitators so they could 
respond to talks about cultural change. That's what we're also 
having to do with regard to the elected school board, and they 
felt that it was necessary to spend some time with 
facilitators, getting to learn how to work with one another.
    So that was more important frankly than at the outset 
meeting the date for having the vision and mission statement. 
The vision and mission statement was discussed at the 24th 
retreat, but that isn't going to have any meaning until they 
sit down with the superintendent. What we have said to them is 
that there's certain dates that are a must to be met. October 
1, 1999 is the beginning date of the work on the fiscal 2001 
budget, and they are to take the lead in that. They cannot move 
on that date.
    So they have now backed up from that date a schedule that 
we will approve this week. They did not change too many of the 
steps in between the development of the mission and vision 
statement, a strategic plan with long- and short-term goals. 
They need to work on their by-laws, but importantly, and this 
is going to be tough, they and the superintendent are going to 
have to work out a clear understanding of roles and 
responsibilities, and when I say that, I mean it's going to be 
tough because one person believes that they're micromanaging 
and another person believes they're not micromanaging but 
they're just carrying out their responsibilities and addressing 
policy issues.
    Now, some of these areas are pretty clear, and I think 
we're going to have to put some of those on the table and just 
say there's no debate here, this is policy, and you are in 
operations, but I guess I would just conclude by saying there 
will be an approved plan that alters the dates. The dates won't 
be changed that much, but I think we all agree, those of us who 
have spent a great deal of time with the school board and the 
facilitators, that it was more important at the outset to 
develop a way in which the school board worked with itself, 
with its leadership and with the superintendent, and if that 
didn't happen, all of the other goals on the transition plan 
would not be met in a meaningful way.
    Ms. Norton. Thank you.
    Mr. Horn. Let me pursue that question just a little bit in 
terms of the management. Do you have exceptions for management 
from being in collective bargaining or is there a separate 
union for managers? How does it work?
    Mrs. Ackerman. We do have a teachers' union, and we have an 
officers' bargaining unit for managers, yes.
    Mr. Horn. Now, that would include the principals of the 
various schools?
    Mrs. Ackerman. That's right and some of our central office 
staff are in this bargaining unit.
    Mr. Horn. What are the positions that are not in the 
bargaining unit, assistant superintendents?
    Mrs. Ackerman. Assistant superintendents are not there. 
The----
    Mr. Horn. Consultants?
    Mrs. Ackerman. Right, but most of the central office 
managerial positions are in this bargaining unit.
    Mr. Horn. I think Ms. Norton made a very pertinent point 
here, if you're going to get a real reaction of your managers, 
you need contracts of 6 months or a year. We did that in the 
California State University system, took me about 5 years of 
lobbying the trustees to get it, and we had a lot of help 
obviously of presidents, chancellors, so forth, but it turned 
things around. We got rid of the civil service positions for 
management. We had four overlapping categories. It started at 
$10,000 and went to $100,000 in terms of deans, vice-
presidents, so forth. This is 10 years ago, and you just saw 
the change, and this was incentives, and as I look around the 
world, there are two countries that have done the same thing, 
and that's Australia and New Zealand, where people are held to 
those contracts and the recompense of the benefits and stipend 
for salary and so forth is adjusted based on performance. If 
they don't have the performance, they're out or are you stuck 
with tenure situations on assistant superintendents and 
everybody?
    Mrs. Ackerman. No, we're not.
    Mr. Horn. They're pleasure appointed?
    Mrs. Ackerman. That's right.
    Mr. Horn. Cause the only way you as superintendent are 
going to be able to turn anything around is if you have that 
authority. So do you feel you have enough or should it be 
broadened into the management groups?
    Mrs. Ackerman. I think that given--I think we have enough 
to make the changes that we need, and there are strategies, as 
you will see. I'm trying not to announce what we're going to do 
here because I'm trying not to compromise the work that's 
already under way, but I think we will be able to do what we 
need to do in special ed in terms of the restructuring of it 
and get some changes, and then we have put in place performance 
measures at every level, and we will put them there.
    Just the mere putting in, in the last few weeks, the quota 
system of how many assessments have to be done and holding 
people accountable to it, we've shown--we already are beginning 
to see the results of that. We've reduced the 184 now down to 
20.
    Mr. Horn. Let me pursue another question here or do you 
have a point, Ms. Cooper?
    Mrs. Cooper. I'm sorry, Congressman. Ms. Norton, I was 
trying to wait for Congressman Davis to return. I did get a 
commitment that I could leave at 11:30, and I'm already late. 
If there are some other questions, please feel free to ask. I'd 
like to be excused.
    Mr. Horn. Let me ask one more and then Ms. Norton will be 
again asking questions. This question comes up because of what 
we went through in the last Congress where computer firms all 
over the Nation wanted us to change the immigration laws to 
bring foreign programmers to the United States. Now, they do a 
fine job, a lot of these foreign programmers. However, there's 
a golden opportunity for minority students in particular, and I 
hit the ceiling when I saw this, and I talked to our community 
college presidents, a number of them, and some of the Silicon 
Valley types.
    Now, Fairfax County is sort of Silicon Valley East, and it 
seems to me that the schools ought to be working very closely 
with the people that are putting out both the hardware and the 
software. Those jobs are $60,000 a year jobs on the average to 
be programmers, and those would be great opportunities for 
students from the District of Columbia schools, but if it's 
going to work, it means there has to be a track in both 
elementary school, junior high, high school, community college 
and the 4-year institutions, and I would hope that frankly the 
school system would do that and sit down with the people in 
Fairfax County, and the chairman here obviously knows them all, 
that he could lead you in the right direction but----
    Mr. Davis. Will the gentleman yield? I mean, we've 
offered--it's--you know, we've certainly offered to do that 
many times with the city and for various reasons. I mean, there 
are a lot of our people trying to get involved there, but 
there's still a little disconnect, and hopefully we can improve 
on that.
    Mr. Horn. It's something. If you tell them where the goals 
are at the end of the line I think a lot of students would be 
encouraged and want to pursue those goals.
    Mrs. Ackerman. I would like to send you.
    Mr. Davis. If the gentleman will yield for a second, I'll 
let you respond. We have 12,000 minimum jobs right now that we 
can't fill that average in the $45, $50,000 range, and because 
the public sector has so missed this, we have private schools, 
computer learning centers, Strayer College, groups like that 
that are coming up and filling the need that government has 
missed the marketplace all together. It is sad and we've tried 
to connect with the city.
    So I think they're trying in their own way to do this, but 
they look at economics differently, and so on, than we do in 
the suburbs, and I think through a dialog this can--over time 
they will wake up and see some of the opportunities, but I 
appreciate the gentleman's comments.
    Mr. Horn. Well, all I can say is, if they're serious about 
it in this country, then educators ought to be doing this, and 
if they aren't they're failing as educators. That's how I feel 
about it.
    Mrs. Ackerman. And I do agree with you. This issue of 
technology in particular is a major issue, and I guess one of 
the things I would like to share with you and send to you is 
some of the things we have done just in the last year around 
technology, which includes a collaborative grant that we did 
recently submit with Fairfax County School District, and I was 
really pleased when the superintendent called me and asked 
would we be interested in collaborating with them, and we did. 
So we will send you information on that because we're looking 
forward to getting this grant.
    Mr. Horn. Thank you.
    Mr. Davis. Thank you.
    Ms. Norton. Would you yield on the question you just 
raised?
    Mr. Davis. Sure.
    Ms. Norton. Apart from the jobs that are available, and 
this is something that's discussed over and over again, we 
wired the schools, and I understand every school is now wired.
    Mrs. Ackerman. Every school is wired.
    Ms. Norton. I've not heard whether or not our schools, the 
teachers in our schools are prepared to, in fact, handle these 
computers and this technology. It does seem to me that one way 
in which Fairfax County or anyone whom the chairman might 
designate could be helpful would be in quickly getting teachers 
so that they are not sitting in schools with computers they 
don't know how to use and, therefore, can't do anything for the 
children with. I'd like to ask you first whether or not 
teachers have had any training now that the schools are wired, 
and second, whether or not there's anything you think that the 
region could do if the teachers do need any special training?
    Mrs. Ackerman. Well, this whole issue of technology, I do 
believe that if our children are going to be prepared for the 
21st century, they have to be technologically competent, and 
the way that really happens in a sustained way is with teachers 
who understand it. We've had more than 5,000 of our teachers 
and support staff who have gone through some kind of training 
this last year. We put in place for the first time 
instructional technology department. It wasn't even existent 
when I came and it's in place now. We have now over six 
different partnerships with area firms and companies, again to 
shore up our focus on this initiative.
    And then the last thing I'd like to say is we just recently 
opened a new training facility down on 8th Street, in our 8th 
Street building where we have 80 computer--it's called the 
Cable in the Classroom training facilities. So we plan and have 
major plans to have professional development over the next year 
that will increase the contact that we have with teachers to 
make sure that they're ready to fully integrate technology into 
the classrooms.
    So we did see this coming. Once the schools were wired, now 
you got to work on the staff. Sometimes--we even have some 
plans of helping our students help, some be facilitators for 
teachers. Some of the students have had the experiences and 
teachers haven't, so----
    Mr. Davis. Maudine, if you want to add anything, you can. 
Otherwise you're certainly excused.
    Mrs. Cooper. I just want to mention once again that we do 
have the alliance that includes many members from the 
surrounding communities. One of those representatives is Marie 
Johns, who is chairing that regional technology group. So there 
is a definite connection between what the superintendent is 
trying to do and the business community, public, private kind 
of partnership.
    I do have to go and I apologize, but I just want to say 
thank you and Ms. Norton for your support of the college access 
program. As a member of the board and the executive committee, 
I think that we all in that committee and board do appreciate 
your support.
    Mr. Davis. Thank you very much. I've got my 5 minutes and 
I'm going to start talking. Technology came up and I was a 
technology executive before I came to Capitol Hill. I had some 
pretty strong feelings about it, and I don't want to place this 
burden on the school system because, frankly, that's not been 
the problem.
    There are issues there where we can do a better job, and 
you have a great challenge ahead and unlimited opportunity for 
these kids that choose to go in that direction, and the College 
Access Act, which I sponsored, is part of that because it will 
make affordable educational opportunities, but more 
importantly, it will allow the city to focus UDC into areas 
where it can be a job creator and teach, if that's what the 
city chooses to do.
    But it's tough to do anything in this city because in my 
opinion it gets--instead of looking at the grand picture and 
looking ahead and around corners, it tends to be very 
parochially oriented sometimes in the way decisions are made, 
and Mrs. Ackerman, I don't consider you part of that problem, 
but I think that has been the history, and we're trying to 
break out of that mold.
    Let me ask, I'm going to go back to something Mr. Chavous 
and I talked about earlier in terms of we'd seen improvement in 
safety in the school system, and I just had an opportunity to 
call the company who has been doing that, and they were 
indicating they'd been asking for meetings to find out what 
they did wrong and haven't been able to reach your office or 
Mrs. Ackerman's, and I would hope that--they are a Fairfax 
County business--that there is some feeling that they were 
picked out because they weren't a DC business.
    And this would go back to the parochialism that has driven 
so many decisions in this city, and I hope this is not part of 
what has motivated you in this because I think that's a 
throwback at a time when the city and suburbs are reaching out 
to meet with each other, but there has been some rhetoric 
throwing around about, you know, suburbanites.
    Listen, our destinies are intertwined, and we have talent 
out there that would love to start taking DC kids and educating 
them, bringing them out to work in our companies and, more 
importantly, some of our companies opening up offices in the 
city, if you can make it affordable for them to do that, and 
cut the regulation and so on that has deterred and driven many 
of them to the suburbs.
    That's part of the problem, and I just hope that has not 
been a motivation, and since I've got you here under oath, I 
thought it's a great time to talk about it.
    Mr. Chavous. And since you do have me under oath, let me 
assure you, you don't need to go there. That wasn't the 
motivation at all.
    Look, in all candor, I wasn't thinking specifically about 
that company when I made that suggestion moot. I was thinking 
in terms of the big picture, as you suggested the city should 
do. You know, Mrs. Ackerman made a good point earlier when she 
talked about----
    Mr. Davis. I'm going to let you finish, but let me just say 
this, we heard Mrs. Cooper earlier talk about limiting the 
school's ability to make--to do their own decisions. We've had 
this problem in Fairfax where--and I don't mean to say Fairfax 
is the end all to do things--where we would have the school 
system do one thing and the county do others through the police 
and everything else. To the extent you have the police moving 
in, they really report to you and the Mayor, not to the school 
system.
    Mr. Chavous. Well, let me say this, a couple of things, the 
contract was going to end in October, irrespective of what we 
did. As part of the----
    Mr. Davis. That had an option, though, to be----
    Mr. Chavous. Yeah, but I had nothing to do with the 
decision on the contract. In fact, Chief Ramsey, if he chooses, 
can choose to renew the contract. That has nothing to do with 
the move we made. What we're looking at is an approach to 
security consistent with what other urban school districts are 
doing around the country, same in Baltimore, New York, and we 
look at these best practices, and looking toward the future, 
that's what led to the decision. It has nothing to do with 
parochialism. It has to do with long range vision and planning, 
which is something that you-all have suggested we do for many 
years, and I've said to Chief Ramsey, he should work with Mrs. 
Ackerman, work with the local schools and make a decision about 
what is in the best interest for those individual schools as it 
relates to security. So it has nothing to do with going out 
to----
    Mr. Davis. And that's all I want you to do. That's all I 
would want you to do on that is to do what you think is the 
right thing, but I was in the business for a long time, too, 
with contractors. You ought to bring them in and let them know 
what's going on.
    Mr. Chavous. I told them we'd talk with them. I mean, we 
were asked--I don't know if they're on the schedule or not.
    Mr. Davis. Let me move on to a couple of other items.
    Ms. Norton. Could the gentleman just yield on this 
question?
    Mr. Davis. Sure.
    Ms. Norton. Because there was something that interested me 
as well, without taking from your time, and take from mine if 
necessary.
    I think that it will restore confidence in security in the 
public schools that the Metropolitan Police Department has 
control of these safety issues, given the problems that you've 
had with contracts and with what we know about people who are 
sometimes recruited.
    There's a lot of confidence in the police chief, and it is 
true that given the mounting problems of safety in public 
schools, big city school systems have been moving in the 
direction that Councilmember Chavous indicated.
    My only concern would be, since essentially you've got to 
have a cop for example, you had them in the high schools--
whether or not you're going to be able to do it at the 
appropriate cost, because one of the reasons people have gotten 
these contractors is they hire these $8 an hour folks who have 
very little experience, who have not done a good job in our 
school system, I can tell you that for sure, on safety matters, 
and I can understand why they hire them. You know, they hire 
essentially security guards in big city school systems where 
people are bringing in real ammunition. Parents, especially 
after Littleton, CO, want to make sure that there's somebody at 
the door who has had some real training.
    My concern, Councilmember Chavous, would be, whether or not 
the police chief might indeed, instead of using high cost cops, 
be able to recruit people who might be in a more--I'll use the 
word paraprofessional role--but still not cost us what it would 
cost us to have essentially officers doing the work that these 
contract officers now do. Is there any look at the cost effect 
of the changes you were making?
    Mr. Chavous. I think that's an excellent point. In fact, 
when this suggestion was vetted to the chief, I mean, he didn't 
immediately say yes, I want to do it. I mean, I think he did 
some due diligence on his own, as did Mrs. Ackerman, in talking 
to some of the other jurisdictions that have headed in this 
direction, and he thinks he can do it, particularly with the 
money that's available, and he did not rule out maintaining a 
relationship with the current security company but having it 
augmented with the better increased role of the metropolitan 
police department.
    The other thing that we're going to do is we're going to 
have a hearing in June, and Mrs. Ackerman and the chief and I 
are all going to sit down to figure out the best way to make it 
work. I mean, I can't emphasize enough that this action was not 
aimed at the contractor per se. It was really aimed at trying 
to move the system forward and taking as much off of this great 
superintendent's plate as possible. I mean, I think that her 
focus should be on educational reform. It shouldn't be dealing 
with the security contract.
    Mr. Davis. Mr. Chavous, under that then, you wouldn't give 
them back any procurement. You would keep procurement over on 
the city side, and we just heard Mrs. Cooper say she wanted it 
to go back to schools.
    Mr. Chavous. Well, we haven't done that. I mean, that's 
something--we're trying to work out a balance because we don't 
want to put additional burdens on her. I think----
    Mr. Davis. We just want it to work. We just want things to 
work.
    We heard testimony today that things are going in the right 
direction on security, and now you are doing another--I don't 
care what you do. We are going to hold you accountable. We 
think this is, obviously, with the events in Colorado, this is 
even heightened. But the school system has been going in the 
right direction in the last year, and now you want to go in 
another direction. That's fine. You may be able to improve it 
and enhance it.
    I just want to say to you, the cost--we don't want to do 
this on the cheap. Having a secure school system is the most 
important thing that you can do as kind of an anchor before you 
can get to the other items. The surveys that I saw in terms of 
why kids were dropping out was the safety and concern about 
being safe in schools was one of the reasons that kids were 
dropping out. That is an absolutely critical route to go.
    If you have given it the thought and the reflection and we 
have an unanimity among us on the way to go, that's all right. 
That's fine with me. I just want to make sure that this wasn't 
driven by other things which I see so often in this city. 
That's all I'm saying. I think that I have said enough on it. 
We are going to be watching and holding you accountable 
appropriately.
    Mr. Chavous. I appreciate that.
    Mr. Davis. Just a couple of other things that I wanted to 
bring out. We have an elected school board now that was, 
frankly, dysfunctional for a couple of years. That's why we had 
an advisory school board put up and everything. But now that 
they have been elected, are there plans--and this is really 
addressed to you, Ms. Newman--to start phasing them back in? 
They were the first elected group in the city. Are there plans 
to phase them back into involvement with the public school 
system and how is that being implemented?
    Ms. Newman. Yes. We have a fairly detailed plan that was 
put together under the leadership of the dean of the School of 
Education at G.W., Mary Futrell. There were representatives 
appointed by Council Member Chavous, and the elected school 
board and the appointed school board.
    That plan outlines what needs to be put into place to 
develop the leadership capability. That plan puts into place a 
time line for developing a mission and vision statement, and 
bylaws--especially, the relationship between the superintendent 
and the school board and their roles and responsibilities. And 
in the plan there is along the way before June 30, 2000, 
additional responsibilities. At the outset we turned over the 
lead responsibility on discipline and development of the 
facilities' master plan. That development of the facilities' 
master plan would be done in conjunction with the 
superintendent and the Corps of Engineers.
    The school board has started working on that. They have a 
staff person assigned to them, and they will meet the deadline 
on that, I'm assured of that. But the ultimate goal is to be 
certain that by June 30, 2000, they have the tools to do the 
job, but more importantly, the understanding of what the job is 
and an agreement with the superintendent of the distinction 
between policy development and day-to-day operations.
    Mr. Davis. Thank you.
    Ms. Newman. I should add that I'm optimistic that it will 
work.
    Mr. Davis. We all want it to work. We really do. We didn't 
feel good about doing anything that would deprive this, but it 
gets to a point where we had to step in, and we have some new 
Members now that are untested, but in many cases weren't part 
of the problems in the past and we want to make sure that we 
transition. I think that's where this committee would come from 
and Ms. Norton would concur with that.
    Finally, just on the charter schools. That was briefly 
discussed as we moved on, the implementation of charter schools 
as being a part of the overall plan. They present a great 
opportunity if it's done correctly, and they can always 
sometimes go the other way as well if it's not done. What is 
being done? How do the charter schools fit into the strategy?
    Mrs. Ackerman. We certainly provide the support, but it's 
really sort of a separate process now. The Board of Ed serves 
as one chartering body, and then there is another body.
    Mr. Davis. I guess my question is, are we being reactive? 
If somebody wants to start a charter school and the school 
board decides that they cut the mustard--or are we saying that 
here is an area like technology where if we did a charter that 
would focus on certain items that would bring in a consortium 
of technology companies coming in and specializing in this that 
we could be active and let's go out and recruit that?
    Are we still in a reactive mode on this?
    Mrs. Ackerman. I don't know because I'm not involved in 
either of those processes.
    Mr. Davis. That's my question.
    Mr. Chavous. I can speak a little bit to that. We have had 
several oversight hearings on what the public charter school 
board is doing. They have been reviewing a lot of different 
applications. I can tell you that what a proponent of a charter 
school has to go through is extremely tedious. It's not easy to 
start a charter school. They have charter schools set up in 
terms of technology, hospitality, mathematics. They have all 
kinds of specialty areas. I think they have become more 
proactive in terms of the selection process and in terms of the 
criteria they are utilizing in order to decide who to appoint 
those charters too.
    Mr. Davis. But Councilman Chavous, that is the way it works 
in a lot of places. But to really make this work, you can be 
proactive. You can say, here is a void that the public schools 
aren't getting right now due to rules and regulations and other 
things. You go out and you incentivize certain groups and say, 
yes, we could really use a charter that would be in one area.
    The city has done very well. Not just with charters, but 
with some of the magnets that it has. I have been very 
impressed with some of the kids I see coming out of Banneker 
and coming out of Duke Ellington school for the arts. It worked 
very, very well. But charters can serve that purpose, too, if 
they are started appropriately.
    We are happy to help you get the consortiums going. There 
is a lot of interest in this region about helping provide 
quality education to these kids. Charters are a great way 
sometimes where you don't have to work within the existing 
rules to do that. If you are proactive, and this could include 
some input from Mrs. Ackerman in terms of these are areas where 
we feel right now that the school system could use some help 
because we have to deal with everybody in the school system and 
there are some niches where if we had a charter here we could 
be proactive, and these are the kinds of things in which we 
like to help you.
    Ms. Newman. I would just add that I have been meeting with 
the representatives of both of the chartering authorities and 
meeting with them together to ask the question, What is the 
rationale and the criteria they are using to address the needs 
of the overall school system? I think they are thinking about 
that. At the outset I think their criteria was more along the 
lines of what is a strong organization that can run a school 
along certain lines.
    If you look at the pattern now, many of them, the math and 
science strategy for some of the schools says, we know where 
some of the gaps are and we believe that we can contribute to 
the overall school system. More of that needs to be done, but I 
think they are thinking along those lines.
    Mr. Davis. So the marketplace itself is starting to define 
it. OK, that's all I needed. Thank you. Mrs. Norton.
    Ms. Norton. Thank you, Mr. Chairman. The chairman called an 
entire hearing on the school count. We are pleased to read 
recently that the school certainly can count now. You have 
75,483 students. But if I may say so, I always thought, 
particularly under you, Mrs. Ackerman, that you all would learn 
to count the students. I regard that as an administerial act 
that somehow you get enough folks in place who have done it 
before, that that could be figured out. But you have not dealt 
with my problem. You really have not dealt with my problem 
according to your own release.
    Here I'm reading from the release, your own auditors who 
conducted and performed the student census, as it is called. 
Here I am quoting: ``identified continuing problems such as the 
lack of student documentation being maintained by DCPS and the 
public charter schools to verify residents.''
    Going on: ``The individual charter schools have their own 
standards for determining residency.''
    Now, this is from your release. My problem has never been 
whether there are this many more or that many more. My problem 
has been where do they come from. As long as we--particularly, 
now that we cannot do, and for the foreseeable future will do 
no, commuter tax, the insult to injury it adds for folks who 
happen to be coming into the District of Columbia to drop off a 
child in one of our public schools and now a public charter 
school is really something.
    I heard the chairman asking about proactivity in our 
charter schools. Well, you know, in Virginia and Maryland they 
can't get charter schools at all. They are virtually blocked 
there. So what happens? You may have people from Virginia and 
Maryland seeing this new blossoming charter school movement in 
the District of Columbia where we have more charter schools per 
capita than any place. They could be ripping you off because we 
still have this residency problem. I know that Mrs. Ackerman 
went to great lengths, great lengths to indicate what 
residences--what we should use to verify residency and the wide 
open things like what church do you go to, those kinds of 
things were eliminated. But if you have got almost 5,000 
children in charter schools, and they are determining standards 
for residency, I, at least, have no confidence that the charter 
schools are educating D.C. students, and I don't even have 
confidence that you are because they say, your own auditors 
say, there is a lack of student documentation being maintained 
by the D.C. Public Schools to verify residency.
    So, I would like to ask you--perhaps Mr. Chavous knows 
something about this--how you yourself can be confident that 
you are overseeing this expenditure of D.C. taxpayers' funds 
only on D.C. taxpayer children in public schools, whether they 
are public charter schools or schools under your direct 
control.
    Mrs. Ackerman. We went through, as you know, an extensive 
process last fall around verification. The problem that we had 
when we talked with the auditors is what we kept as a proof of 
that process. In some schools there was the checklist and 
signed off by the person, the staff person, who verified. 
Others, they actually kept the documents. There was some 
confusion this year about whether or not the documents had to 
be kept in every file. What we did have was, though, a 
verification that they had been checked and what was checked.
    What we have done for next year is to be clear about that. 
That was the problem that we had. When we brought the auditors 
back, I think they were satisfied that we did, indeed, have a 
process in place and that we could verify. The problem we had 
is what we kept in the permanent records. Next year that will 
not be an issue. As it relates to what happens in charter 
schools, we did not have that same process for charter schools. 
There was a separate process.
    Ms. Norton. Why was that, Mrs. Ackerman? That's not in your 
best interests.
    Mrs. Ackerman. Well, I know----
    Ms. Norton. Public school money per pupil that goes to the 
charter schools. Why wouldn't you insist that they, in fact, 
use the same process that you had forced on the public schools 
that are noncharter schools?
    Mrs. Ackerman. I would like to insist that they do, but I 
don't think that I----
    Mr. Chavous. And that will happen. We have noticed that has 
been a problem. With the escalating number of children that are 
accessing public charter schools, there has to be some 
continuity in the enrollment and making sure that the residency 
includes D.C. residents.
    In fact, Ms. Newman and I have been talking about the best 
way to do it. If it needs to be done legislatively, it will be. 
If it needs to be done in rulemaking, we will make that happen.
    Ms. Norton. I very much appreciate that to clear this 
problem up once and for all.
    Could I ask you a question--by the way, I'm sure that you 
would be concerned about this, Mr. Chavous. They no longer are 
saying 80,000 students. So that means 4,000 disappeared just by 
counting. Now they are saying 75,000.
    You know what has happened to 7 and 8. That's where the 
children were. That's also where much of the movement has gone 
from. That's why it has been hard for us to believe that 
somehow the movement out of the city has been so colossal but 
the school remained exactly where it was. There is some 
credibility restored because at least the number has gone down 
so we can see that there is accurate counting.
    Let me ask you, in light of that, about this difficult 
problem that the school system has had. One, I want to know if 
there is a continuing decline in student population and whether 
you anticipate that that will be the case. We are gaining in 
population, but all of the indications are that they are single 
people and married couples without children. So, one, in your 
long range planning do you see a decline in the student 
population, and, two, what has happened to the properties that 
were to be sold once you closed the school? If there is a 
decline in student population, do you see any more 
consolidation or closing of schools?
    Mr. Chavous. Let me answer the first one. I think that Mrs. 
Newman can answer about the surplus properties the Control 
Board has been tasked with that responsibility.
    We are going through this process of implementing a long-
range master facilities' plan, and one of the reasons why we 
rejected the plan last year is it did not deal with the 
demographic trends. We don't want to talk--we are talking about 
building and modernizing new schools. We don't want to build 
schools and modernize schools if there aren't going to be 
children. So we are doing some statistical analysis to try to 
decide where the growths are in this city.
    It is true that the city is continuing to lose population, 
but it is also true that that is being stabilized somewhat. It 
is being offset to some degree, not to the degree that we would 
like, by new folks coming into the city. My ward, as you 
mentioned, ward 7, has lost more people in this city than any 
ward in the city over the past 10 years. But we do see home 
sales increasing by families even in my ward.
    So the short answer to your question is, yes, we think that 
the school population is still declining, but we don't feel 
that it's declining at the same time. I think that the 
renaissance in the city will be reflected in middle class 
families coming back in. I think that with some of the inroads 
we are making with public safety and even along the tax lines--
I think that's going to have, frankly, a heartening impact on 
that issue.
    I think Ms. Newman could speak specifically about surplus 
property.
    Ms. Newman. Yes, I can, and I can't speak in a way that I'm 
very proud of. I think that most of us who have been involved 
with the disposition of the school property up until about 2 
months ago have not been that comfortable that the process has 
run as smoothly as it should run. But what I think we all are 
in agreement on right now is that we need to see which of the 
schools are in process and where are there certain expectations 
that there is property to be disposed of. And then what we need 
to do is to revisit the policy and determine--what I started to 
get along the way was more public sentiment that the school 
system not sell the properties, but rather lease it. That 
wasn't the policy at the outset.
    So what I'm suggesting is that once we see what is in 
process and we take care of those, up or down, that then we, 
through the public process of the Council, revisit what is and 
should be the policy, how much should there be a determination 
of the community impact and other community uses, and how much 
should only the bottom line be considered in the disposition of 
the property.
    Ms. Norton. I can understand your concern and, of course, 
you are getting competing notions here. One thing that you 
don't want to have happen to you is what happened to the city 
in the past. The city has closed schools. These schools have 
become terrible wrecks in communities. So if you close schools 
and go through that pain, some disposition must be made of the 
school.
    As you say, there are options. If you don't want to sell 
it, or you decide on second thought you shouldn't sell it, then 
the only thing that I'm asking is don't let happen what has 
happened in my neighborhood where the school site became the 
focus for all of the dereliction in the neighborhood. It was 
the public school site.
    Whereas people were taking care of their homes, it was the 
public school site because the public school was closed, the 
site, years ago and nothing ever happened to it. So the public 
thinks that having gone through this terrible pain and turmoil, 
which, of course, was necessary to close the schools, that the 
site is going to be taken care of. I would only ask that a time 
limit be put on it, for example, to say that by the end of this 
year a decision would be made on what is the disposition of the 
closed schools, so that we will not go into the year 2000 not 
even knowing whether it is going to be sold or whether you have 
made another decision.
    Mr. Davis. If the gentleman would yield, I would concur 
with that. I would concur with that.
    Ms. Newman. Mr. Chairman, a point of personal privilege. 
Mr. Singleton is a member of the elected school board, and I 
think he feels I haven't properly represented the optimism and 
the support for the elected school board. I would like to ask 
him if he can have a minute----
    Mr. Davis. He isn't sworn. We invited the school board to 
participate, and their leader did not show or give notice as to 
why she wasn't showing. We will give him an ample opportunity 
at another hearing.
    Ms. Newman. I see.
    Ms. Norton. Thank you, Mr. Chairman. I have no more 
questions.
    Mr. Davis. Mr. Horn.
    Mr. Horn. Thank you, Mr. Chairman. I think earlier in 
response to a question from the panel, Superintendent, you 
mentioned the open enrollment policy of the District.
    Do you have data on last fall's results of open enrollment, 
and has it been analyzed as to where a particular student was 
and where that student is now going? And is that data 
available, and have you analyzed it in terms of is this a bad 
school that student was leaving from to go to what was 
perceived by parents and perhaps the child as a good school? 
And what can you tell me about the analysis of that data?
    Mrs. Ackerman. Again, we are in the process. This is the 
first year that we have put out our school profiles, so we are 
looking at a variety of data, including where our students 
attend schools. We will be able to, for the first time, take a 
look at that as we look at all of the data we have compiled by 
school.
    There is movement across the District--and we can see 
within each school how many students are out of boundary. So we 
will be able to look at how many students are out of boundary 
and continue, how many students migrate back. In the past, we 
haven't kept that, we haven't looked at that data. We are now 
compiling it in the new school profiles along with other data 
that will allow us to look at it and strategically plan, but to 
allow parents to look at it.
    Mr. Horn. That is where I was leading. Have you thought of 
a random sample of the parents when you see some significant--
sort of more than normal change? Either a person might have 
bought a house in a different type of neighborhood or not, and 
that--but the question is, if they are still living at a 
certain address and changing schools, that ought to be perhaps 
significant, and are you thinking of doing the survey to get 
more information?
    Mrs. Ackerman. This is the second year that we surveyed all 
of our parents, and there are a variety of questions. Many of 
them relate to the school and what is happening in the school. 
Since this is our second year, we can now begin to compare what 
parents said last year with the data that we have this year 
when we get it back. In fact, the surveys are in, probably, in 
all of our homes this week--or they will be by the end of this 
week--and we are expecting them back.
    We are going to do the comparison. We are going to use it. 
I am a firm believer that the data needs to drive the decisions 
in the District. These surveys tell us a lot. They told us a 
lot last year and they will tell us even more about the 
progress that we are making in our individual schools. We also 
surveyed our students and staff.
    Mr. Horn. I suspect that you and I could agree that the 
principal sort of sets the tone for the school and makes the 
difference. My children went to the D.C. schools when they were 
desegregated, two-thirds black in the particular junior high 
that my daughter went to. Superb education. Then the principal 
retired for many years and the school started going downhill 
because the successor never left the principal's office. The 
previous principal was out there in those halls, was tooting 
his whistle, knew students by name, all of those things that 
connect in terms of encouraging students to get an education. I 
hope you will be looking at that and maybe holding some 
principals accountable.
    Mrs. Ackerman. Last year we changed 39 principals. I do 
believe that the victory is in the classroom with the teacher, 
but it is facilitated in the principal's office. If you want to 
see a good school, there is a good principal in the principal's 
office.
    Mr. Horn. As you know, that also means that the principal 
ought to be backing up the teacher when there are discipline 
problems. Too often principals have just been hiding behind the 
desk. I don't know how you find that as a superintendent, 
whether they are hiding under the desk or just behind the desk, 
but I leave that up to your professionalism. Thank you.
    Mrs. Ackerman. Thank you.
    Mr. Davis. Mr. Horn, thank you. I want to thank all of you. 
We may submit some further questions. Mrs. Ackerman, I know you 
are going to get back to us with those test scores that we 
asked for and we will make those part of the record.
    Mrs. Ackerman. Yes.
    Mr. Davis. Without objection, all written statements 
submitted by the witnesses will be made part of the permanent 
record, and the record will remain open for 10 days. The 
subcommittee will continue to work with all interested parties 
to achieve these objectives of making this a great school 
system. And these proceedings are closed.
    [Whereupon, at 12:23 p.m., the subcommittee was adjourned.]

                                   - 

</pre></body></html>
